<html>
<title> - SECURING AMERICA'S TRANSPORTATION AND MARITIME SYSTEMS: A REVIEW OF THE FISCAL YEAR 2021 BUDGET REQUESTS FOR THE TRANSPORTATION SECURITY ADMINISTRATION AND THE U.S. COAST GUARD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


SECURING AMERICA'S TRANSPORTATION AND MARITIME SYSTEMS: A REVIEW OF THE 
   FISCAL YEAR 2021 BUDGET REQUESTS FOR THE TRANSPORTATION SECURITY 
                ADMINISTRATION AND THE U.S. COAST GUARD

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

                           Serial No. 116-67

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                      

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-344 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    Dan Bishop, North Carolina
Val Butler Deming, Florida           Jefferson Van Drew, New Jersey
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. David P. Pekoske, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Admiral Karl L. Schultz, Commandant, U.S. Coast Guard:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Appendix

Questions From Chairman Bennie G. Thompson for David P. Pekoske..    39
Questions From Ranking Member Mike Rogers for David P. Pekoske...    42
Questions From Chairman Bennie G. Thompson for Karl L. Schultz...    47

 
SECURING AMERICA'S TRANSPORTATION AND MARITIME SYSTEMS: A REVIEW OF THE 
   FISCAL YEAR 2021 BUDGET REQUESTS FOR THE TRANSPORTATION SECURITY 
                ADMINISTRATION AND THE U.S. COAST GUARD

                              ----------                              


                       Wednesday, March 11, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 1334, Longworth House Office Building, Hon. J. Correa 
(Chairman of the subcommittee) presiding.
    Present: Representatives Correa, Barragan, Lesko, Bishop, 
and Van Drew.
    Mr. Correa. Good morning, everyone.
    The Subcommittee on Transportation and Maritime Security 
will now come to order. The committee is meeting today to 
receive testimony on the President's fiscal 2021 budget request 
for the Transportation Security Administration, or TSA, and the 
U.S. Coast Guard.
    I want to recognize myself for an opening statement.
    I want to thank the administrator and the commandant for 
appearing before the subcommittee today. Thank you, gentlemen.
    Homeland Security is our top priority, and the TSA and the 
Coast Guard are critical components in providing that security. 
I am concerned that, under the President's budget proposal, our 
Homeland Security professionals will not be appropriately 
resourced and empowered to meet the security challenges of the 
day.
    Currently, we are dealing with a public health crisis 
caused by the novel coronavirus. As the Government responds to 
this crisis, I worry that TSA and the Coast Guard will struggle 
to protect their front line work force while they carry out 
their security missions.
    Each day, TSA or TSO officers are interacting with 
thousands of passengers traveling from all over the world, and 
just this morning, we got a report that TSA has 3 of their 
members exposed in San Jose. So, Mr. Pekoske, if we can likely 
hear your response to this issue in your comments.
    In the same way, the Coast Guard personnel interact 
regularly with foreign nationals and international travelers 
while they perform law enforcement functions and search-and-
rescue operations as well.
    This budget asks men and women of TSA and the Coast Guard 
to do more with less, and redirects desperately needed funds to 
the President's misguided plans to build a wall on the Southern 
Border.
    TSA, for example, is proposing to cut important security 
programs that Congress has deemed critical. These cuts include 
eliminating VIPR teams that provide security at airports and 
mass transit hubs, as well as eliminating TSA staffing at 
airport exit lanes, and funding for airport law enforcement 
through the Law Enforcement Officers Reimbursement program.
    The administration is proposing a hiring freeze of 1,100 
full-time employees, a cap that maybe now makes sense in light 
of the unexpected downturn in travel that has developed over 
the last few days.
    The budgets also fails to request resources needed to 
address the major security challenges that the administration 
will create if it follows through with its plans to enforce the 
REAL ID compliance at TSA checkpoints beginning on October 1, 
2020.
    If DHS follows through with the October 1 REAL ID deadline, 
millions of passengers, I am afraid to say, will not be allowed 
through TSA checkpoints. The challenges that could result are 
crowded public areas and long lines at screening checkpoints 
Nation-wide, this creating other security challenges at our 
airports. DHS admits that only 35 percent of Americans have 
REAL ID cards at this time.
    The disruption at airports will cripple operations and the 
travel industry, leaving the work force to deal with the 
backlash from angry passengers. Throughout its existence, TSA 
has struggled with low morale and high attrition among its 
front-line work force.
    Thankfully, this budget does include a proposal to begin to 
provide regular salary increases to TSOs. I appreciate that TSA 
is recognizing the need to prioritize TSO pay and career 
progression issues this committee has been emphasizing for many 
years. I want to commend the administrator for developing this 
proposal for regular salary increases, but it does not go far 
enough. Without statutory change, salary increases will be 
subject to the whims of the annual budget process.
    This budget proposal also fails to increase the starting 
salaries of new TSOs, provide basic civil service protections 
available to other Government workers, both issues that will be 
covered and are covered under the Chairman Thompson's bill, the 
Rights for TSO Act, which the White House passed--which--I am 
sorry--this House has passed this last week.
    If the President is serious about wanting to provide the 
front-line TSA work force the support you desperately need, we 
should withdraw--the President should withdraw his threat to 
veto this landmark legislation and urge the Senate to pass it.
    When it comes to the Coast Guard, the President's budget 
proposal is also not much better. No one is more resource-
constrained than the Coast Guard. With its 11 statutory 
missions, the least funded among the military branches--and I 
am honored by the service and the commitment of the people of 
the Coast Guard to always rise to the challenge to meet their 
mission. However, no organization can run indefinitely without 
adequate resources and support, and we are already seeing the 
effects today.
    The long-term failure to adequately fund the Coast Guard 
fleet sufficiently leaves us with a shortage of assets to carry 
our Coast Guard operations. For example, the Coast Guard does 
not have enough icebreakers and will not receive its first 
polar security cutter until 2024. While this budget includes 
funding for a second polar security cutter, it makes no attempt 
whatsoever to address the Coast Guard's $2 billion backlog of 
shore infrastructure maintenance and recapitalization projects.
    A lack of strategic funding endangers our National 
security, and without the necessary assets and infrastructure, 
the Coast Guard will be unable to address the majority of known 
threats. I will give you an example. The Coast Guard has 
estimated that it knows of about 80 percent of the maritime 
drug movements, yet you can only target 20 percent of those 
movements for interdiction because of constraints in your 
resources. Despite these constraints, the Coast Guard continues 
to lead all Federal agencies in seizing more cocaine than all 
these other Federal agencies combined.
    The President has stated that preventing drugs from 
entering our country is a priority for the administration, and, 
if the President wants to stop drugs from coming across our 
borders, he should fully fund the Coast Guard instead of 
redirecting military funds to build an antiquated border wall.
    I look forward to hearing from our witnesses today about 
their important work in their agencies and the support they 
need to protect the homeland and ensure the security of all 
Americans.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                             March 11, 2020
    Currently, we are dealing with the public health crisis caused by 
the novel coronavirus. As the Government responds and strives to limit 
the spread of the virus, I worry that TSA and the Coast Guard will 
struggle to protect their front-line workforces while they carry out 
their security missions.
    Last night, TSA announced that 3 officers at San Jose International 
Airport have tested positive for COVID-19. Our thoughts go out to them, 
and we wish them a speedy recovery.
    They are among the 46,000 brave Transportation Security Officers, 
TSOs, who are continuing to show up to work during this crisis and who 
are interacting with thousands of passengers traveling from all over 
the world.
    Similarly, Coast Guard personnel interact regularly with foreign 
nationals and international travelers while they perform law 
enforcement functions and search-and-rescue operations. We must make 
sure the workforces of both agencies are kept as safe as possible, and 
that they are able to receive appropriate health care benefits.
    Turning to today's topic, this budget proposal asks the men and 
women of TSA and the Coast Guard to go on doing more with less and 
redirects desperately needed funding to the President's misguided plans 
for a wall at the Southern Border. TSA, for example, is proposing cuts 
to important security programs that Congress has already made clear are 
unacceptable. These cuts include eliminating VIPR teams that provide 
security at airports and mass transit hubs, as well as eliminating TSA 
staffing of airport exit lanes and funding for airport law enforcement 
through the Law Enforcement Officer Reimbursement Program.
    The administration also proposes a hiring freeze of 1,100 full-time 
employees--a cap on staffing that only makes sense now in light of the 
unexpected travel downturn that has developed over the past few days. 
The budget also fails to request resources needed to address the major 
security vulnerabilities the administration will create if it follows 
through with its plans to enforce REAL ID compliance at TSA checkpoints 
starting October 1, 2020.
    If DHS follows through with those plans, millions of passengers who 
have not obtained a REAL ID-compliant identification will not be 
allowed through a TSA checkpoint. This change could result in crowded 
public areas and long lines at screening checkpoints Nation-wide. DHS 
estimates only 35 percent of Americans have REAL ID cards.
    The disruption at airports could cripple operations and the travel 
industry--and leave the workforce to deal with the backlash from angry 
passengers. Throughout its existence, TSA has struggled with low morale 
and high attrition among its front-line workforce.
    Thankfully, this budget does include a proposal to begin providing 
regular salary increases to TSOs.
    I appreciate that TSA is recognizing the need to prioritize TSO pay 
and career progression--issues this committee has been emphasizing for 
many years.
    I commend the administrator for developing this proposal for 
regular salary increases, but it does not go far enough. Without a 
change to the statute, salary increases will be subject to the whims of 
the annual budgeting process.
    The budget proposal also fails to increase the starting salaries 
for new TSOs or provide basic civil service protections available to 
other Government workers--both issues which would be covered under 
Chairman Thompson's bill, the Rights for TSOs Act, which the House 
passed last week.
    If the President is serious about wanting to provide the front-line 
TSA workforce the support it desperately needs, he should withdraw his 
threat to veto this landmark legislation and urge the Senate to pass 
it. When it comes to supporting the Coast Guard, the President's budget 
proposal is not much better.
    No one is more resource-constrained than the Coast Guard, with its 
11 statutory missions and the least funding among military branches. I 
am honored by the service and commitment of the people of the Coast 
Guard, who always rise to the challenge and meet their mission.
    However, no organization can run indefinitely without adequate 
resources and support. We are already seeing the effects today. The 
long-term failure to adequately fund the Coast Guard fleet sufficiently 
leaves us with a shortage of assets to carry out Coast Guard 
operations. For example, the Coast Guard does not have enough 
icebreakers and will not receive the first Polar Security Cutter until 
2024.
    While this budget includes funding for a second Polar Security 
Cutter, it makes no attempt whatsoever to address the Coast Guard's $2 
billion backlog of shore infrastructure maintenance and 
recapitalization projects. A lack of strategic funding endangers our 
National security, as without the necessary assets and infrastructure 
the Coast Guard is unable to address the majority of known threats.
    For example, the Coast Guard has estimated that it knows about 80 
percent of maritime drug movements but can only target 20 percent of 
those movements for interdiction because of resource constraints. 
Despite those constraints, the Coast Guard continues to lead Federal 
agencies in seizing more cocaine than all other Federal agencies 
combined.
    The President has stated that preventing drugs from entering the 
country is a priority for this administration. If he wants to stop 
drugs from coming across our borders, he should fully fund the Coast 
Guard, instead of redirecting military funds to build an antiquated 
border wall.

    Mr. Correa. With that, I now recognize our Ranking Member, 
our gentlelady from Arizona, Mrs. Lesko, who has walked in 
right on time.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Thank you for waiting for me. First, I had pastors in my 
office praying for me, so I was, like, OK, I can't miss that.
    Mr. Correa. They could pray for all of us.
    Mrs. Lesko. Yes. Well, I am sure they are. Then I walked 
over to the Homeland Security Committee meeting room, and there 
was no one there, so here we are.
    All right. Well----
    Mr. Correa. We have been here.
    Mrs. Lesko. I know. Thank you, Mr. Chairman. I am pleased 
that the subcommittee is meeting today to discuss the 
President's fiscal year 2021 budget request, which outlines the 
administration's priorities relating to the Transportation 
Security Administration and the United States Coast Guard.
    As authorizers, it is incumbent upon the subcommittee to 
examine the President's request, and I look forward to hearing 
from Admiral Schultz and Administrator Pekoske on how the 
proposed 2021 budget supports their respective agencies' 
homeland security missions.
    The United States Coast Guard faces an incredibly broad 
mission act, serving as part of the U.S. Armed Forces and 
intelligence community, while also acting as a law enforcement 
entity, regulator, and first responder.
    One of the greatest budgetary challenges facing the Coast 
Guard is the need to achieve mission readiness in the face of 
increasing demands. As we have seen through our oversight 
hearings and briefings on the Coast Guard's drug and migrant 
interdiction efforts, disaster response missions, and the 
homeland security implications of a dynamic Arctic region, the 
service faces ever-broadening challenges.
    I am pleased that the President's budget request addresses 
several of these challenges, including an overall budgetary 
increase of $142 million over the fiscal year 2020 enacted 
level. Additionally, the budget includes necessary funding 
requests to construct a second polar security cutter, post-
delivery activities for National security cutters, construction 
of an additional offshore patrol cutter, as well as funding for 
new waterway commerce cutters. The budget also addresses 
growing cybersecurity threats facing internal Coast Guard 
systems, as well as the maritime transportation stakeholders.
    These funding priorities are of important National security 
interests to the United States.
    I look forward to hearing the Commandant address questions 
related to keeping some of these high-profile procurements on 
track and efforts to respond to the litany of threats facing 
our maritime interests.
    As for the TSA, the President's budget proposal is $58 
million less than funding appropriated by Congress in fiscal 
year 2020. The budget proposal unfortunately reduces funding to 
important transportation security programs, including the 
Federal Flight Deck Officers and Law Enforcement Reimbursable 
Agreement.
    It is unfortunate to see the budget request continue to 
target these programs year after year, even after Congress 
passed the TSA Modernization Act, which explicitly authorized 
funding for law enforcement reimbursements and prioritize new 
investments for Federal flight deck officers.
    Moreover, I am concerned that the fiscal year 2021 request 
reduces funding for procurement, impacting purchases of 
important technologies, like computed tomography machines, 
checked baggage screening machines, and credential 
authentication technology. These investments have been heavily 
supported by Congress on a bipartisan basis because they make 
significant improvements to aviation security and mitigate 
specific threats to the traveling public.
    Last, I hope to hear from Administrator Pekoske on how TSA 
is prepared for the upcoming enforcement of the REAL ID 
requirements at airport checkpoints and how TSA can support 
travelers once the October 1 deadline arrives.
    Both the Coast Guard and TSA sit on the front lines of 
protecting the free movement of people and goods, and driving a 
strong American economy. I thank both of our witnesses, and I 
truly do, for all of your hard work, for appearing before the 
subcommittee today, and I look forward to hearing your 
testimony.
    Thank you.
    Mr. Chair, I yield back.
    [The statement of Ranking Member Lesko follows:]

                Statement of Ranking Member Debbie Lesko

                             March 11, 2020

    Thank you, Mr. Chairman. I am pleased that the subcommittee 
is meeting today to discuss the President's fiscal year 2021 
budget request, which outlines the administration's priorities 
relating to the Transportation Security Administration and the 
United States Coast Guard.
    As authorizers, it is incumbent upon this subcommittee to 
examine the President's request, and I look forward to hearing 
from Admiral Schultz and Administrator Pekoske on how the 
proposed 2021 budget supports their respective agencies' 
homeland security missions.
    The United States Coast Guard faces an incredibly broad 
mission set, serving as part of the U.S. Armed Forces and 
intelligence community, while also acting as a law enforcement 
entity, regulator, and first responder. One of the greatest 
budgetary challenges facing the Coast Guard is the need to 
achieve mission readiness in the face of increasing demands. As 
we have seen through our oversight hearings and briefings on 
the Coast Guard's drug and migrant interdiction efforts, 
disaster response missions, and the homeland security 
implications of a dynamic Arctic region, the service faces 
ever-broadening challenges.
    I am pleased that the President's budget request addresses 
several of these challenges, including an overall budgetary 
increase of $142 million over the fiscal year 2020 enacted 
level. Additionally, the budget includes necessary funding 
requests to construct a second Polar Security Cutter, post-
delivery activities for National Security Cutters, construction 
of an additional Offshore Patrol Cutter, as well as funding for 
new Waterway Commerce Cutters.
    The budget also addresses growing cybersecurity threats 
facing internal Coast Guard systems, as well as maritime 
transportation stakeholders. These funding priorities are of 
important National security interest to the United States. I 
look forward to hearing the commandant address questions 
related to keeping some of these high-profile procurements on 
track and efforts to respond to the litany of threats facing 
our maritime interests.
    As for TSA, the President's budget proposal is $58 million 
less than funding appropriated by Congress in fiscal year 2020. 
The budget proposal unfortunately reduces funding to important 
transportation security programs, including Federal Flight Deck 
Officers and Law Enforcement Reimbursable Agreements. It is 
unfortunate to see the budget request continue to target these 
programs year after year, even after Congress passed the TSA 
Modernization Act, which explicitly authorized funding for law 
enforcement reimbursements and prioritized new investments for 
Federal Flight Deck Officers.
    Moreover, I am concerned that the fiscal year 2021 request 
significantly reduces funding for procurement, impacting 
purchases of important technologies like Computed Tomography 
machines, checked baggage screening machines, and Credential 
Authentication Technology. These investments have been heavily 
supported by Congress on a bipartisan basis because they make 
significant improvements to aviation security and mitigate 
specific threats to the traveling public.
    Last, I hope to hear from Administrator Pekoske on how TSA 
is preparing for the upcoming enforcement of REAL ID 
requirements at airport checkpoints and how TSA can support 
travelers once the October 1 deadline arrives.
    Both the Coast Guard and TSA sit on the front lines of 
protecting the free movement of people and goods and driving a 
strong American economy. I thank both of our witnesses for 
appearing before the subcommittee today, and I look forward to 
hearing your testimony. Thank you, and I yield back the balance 
of my time.

    Mr. Correa. Thank you, Ms. Lesko.
    Other Members of the committee are reminded that, under the 
rules of the committee, opening statements may be submitted for 
the record, and I want to welcome our first panel of witnesses.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 11, 2020
    Thank you to Chairman Correa and Ranking Member Lesko for holding 
today's hearing on examining the President's fiscal year 2021 budget 
request for the Transportation Security Administration and the U.S. 
Coast Guard.
    I would also like to thank Administrator Pekoske and Commandant 
Schultz for appearing before the subcommittee today.
    TSA and the Coast Guard both execute missions critical to homeland 
security.
    Unfortunately, the President's budget proposal undercuts the 
mission of these critical agencies.
    The budget does not adequately fund nor address major morale and 
retention problems within TSA's front-line workforce.
    Last year, the DHS inspector general released a report which found 
that TSA faced major challenges in retaining Transportation Security 
Officers (TSOs) and that, over a 2-year span in 2016 and 2017, 1 in 3 
TSOs quit.
    I applaud TSA's initiatives in this year's budget to increase the 
pay for high-skilled TSOs and provide annual pay increases for service 
longevity--but they do not go far enough.
    This budget does nothing to address TSOs' lack of basic workplace 
protections that have been granted to workers in other Federal 
agencies.
    Last week, the House passed my bill, H.R. 1140, the ``Rights for 
Transportation Security Officers Act of 2020,'' which guarantees basic 
rights for all TSA employees by moving them to Title 5.
    I look forward to working with the Senate to ensure its passage and 
working with the administrator to ensure the rights of all TSA 
employees are protected.
    TSA's budget dramatically reduces its plans to procure new Computed 
Topography machines, which greatly enhance the screening of carry-on 
bags.
    TSA's Capital Investment Plan calls for procurement of 
approximately 400 CT machines per year through fiscal year 2024--yet 
astoundingly, this year's budget only proposes funding for 30 units.
    Since the administrator has previously highlighted this technology 
as one of the most critical tools to countering current threats to 
aviation, I find the omission of adequate funding in the budget 
alarming.
    The President's budget request also proposes a staffing cut of 
1,110 full-time equivalent employees, the elimination of exit lane 
staffing and the VIPR Program--TSA's main operational resource for 
surface transportation security--and elimination of the Law Enforcement 
Officer Reimbursement Program, which supports placing uniformed 
officers near screening checkpoints in over 300 airports Nation-wide.
    Many of these cuts have been present in each of the President's 
previous budget proposals, and Congress has repeatedly rejected them.
    The Trump administration should be focused on bolstering Federal 
support for such programs, not eliminating them in favor of funding for 
an unnecessary border wall.
    Let us stop this political charade and work together to ensure our 
Nation's transportation systems are secure.
    Equally important to the discussion of our Nation's homeland 
security are efforts to secure our maritime interests.
    The U.S. Coast Guard carries out critical homeland security 
missions including maritime law enforcement, drug and migrant 
interdictions, port security, and the protection of U.S. security and 
sovereignty throughout the world's waters.
    With such a vast footprint and mission, the U.S. Coast Guard 
workforce is under constant pressure--and yet, like the TSA workforce, 
the Coast Guard workforce constantly delivers for the American people.
    Over the last 2 fiscal years, Congress has made significant 
investments in modernizing Coast Guard assets, including funds to make 
the Coast Guard's acquisition of a new Polar Security Cutter possible.
    This year's budget seeks funding for a second new Polar Security 
Cutter as well as National Security Cutters which the Coast Guard needs 
to keep our Nation's coastlines safe.
    These investments, however, do not fully compensate for years of 
deferred maintenance and recapitalization of the Coast Guard's fleet 
and shore infrastructure.
    A February 2019 report by the Government Accountability Office 
found that about 45 percent of the Coast Guard's shore infrastructure 
is beyond its service life, and current backlogs of maintenance and 
recapitalization projects will cost at least $2.6 billion to address.
    The fiscal year 2021 budget request provides only $75 million for 
shore infrastructure projects, which would not begin to address the 
backlog.
    This is unacceptable.
    Given the pace of climate change and continually rising sea levels, 
failure to begin addressing the backlog of shore infrastructure 
projects could prove catastrophic and extremely costly over the coming 
years.
    In addition to its shore infrastructure backlog, the Coast Guard 
faces challenges in upgrading and maintaining its IT infrastructure.
    The fiscal year 2021 budget provides approximately $24 million to 
enhance the Coast Guard's IT infrastructure, which represents only a 
small fraction of the annual IT backlog the Coast Guard faces and does 
little to ensure Coast Guard personnel are connected.
    Coast Guard personnel must have reliable access to modern, secure 
IT systems to do to their jobs and protect the American people.
    Finally, I want to turn to personnel matters and workforce 
retention issues within the Coast Guard.
    The Coast Guard has struggled to recruit and retain woman and 
minorities.
    This committee has expressed concerns about the about the lack of 
racial, gender, and regional diversity within the Coast Guard and the 
Coast Guard Academy, and about the Coast Guard's efforts to address 
bullying, harassment, and whistleblower retaliation.
    This committee and the Committee on Oversight and Reform 
investigated these issues for more than 18 months and found major 
deficiencies in the Coast Guard's policies for investigating 
allegations of harassment and bullying.
    In a staff report released in December regarding the investigation, 
the committees outlined 7 recommendations, which, if implemented will 
greatly strengthen the Coast Guard's ability to respond to these 
incidents.
    Throughout the investigation, I was disappointed by the Coast 
Guard's responsiveness to requests for information and by the 
Commandant's decision not testify in person at our hearing about these 
issues in December.
    I am heartened, however, by a recent letter from the Commandant 
admitting that our investigation identified deficiencies within the 
service and expressing an intent to our staff report's recommendations.
    The service needs become more inclusive, diverse, and equitable to 
ensure it reflects the public it serves and protects its personnel.
    I look forward to working with you and your staff to ensure the 
recommendations are implemented in a timely manner.
    Again, I thank the Chairman for holding today's hearing and the 
witnesses for their participation.

    Mr. Correa. Without objection, the witnesses' full 
statements will be inserted into the record.
    Our first witness, Mr. David Pekoske, has served as the 
seventh administrator of the TSA since August 2017. Before 
joining TSA, Administrator Pekoske most notably served as the 
26th Vice Commandant of the U.S. Coast Guard. As the Vice 
Commandant, Mr. Pekoske was second in command, also serving as 
the chief operating officer and component acquisition executive 
of the U.S. Coast Guard.
    Mr. Pekoske, welcome. You may summarize your statements in 
5 minutes. Thank you.

 STATEMENT OF DAVID P. PEKOSKE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pekoske. Thank you, Mr. Chairman, and, Chairman Correa, 
Ranking Member Lesko, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you this morning to discuss the President's fiscal year 2021 
budget request for TSA.
    I thank all of you and your staffs for your long-standing 
strong support of aviation and surface transportation security. 
It is a distinct privilege for me to lead the 64,000 men and 
women who perform our critical mission with excellence each and 
every day.
    This includes our screening work force, the largest and 
most visible part of TSA, as well as others on the front line, 
to include our Federal air marshals; our K-9 teams; our 
inspectors, both domestic and international, air and surface; 
our vetting staffs; and my representatives at embassies around 
the world. They are all enabled by outstanding support, policy, 
and legal staff throughout the agency.
    The President's request provides important new support to 
our screening work force. This includes, for the first time 
ever, funding for service, or longevity, pay. The budget 
provides for annual increases of up to 2 percent to recognize 
experience and years of service.
    It also includes the next phase of incentives to encourage 
and recognize career progression by providing a 3 percent pay 
raise for those officers who acquire advanced alarm resolution 
skills. I ask for your support of these critical pay 
initiatives for our transportation security officers.
    It is very important that we continue to refresh the 
technology at our screening checkpoints in the nearly 440 
Federalized airports across the country. We need to put the 
best technology in the hands of our outstanding people.
    Thank you for your support of two key on-going programs. 
This budget continues investment in the deployment of CT, in 
credential authentication technology, at the checkpoint. We are 
in the process of fielding the initial 300 machines funded by 
Congress with computed tomography technology.
    This represents a significant improvement in our ability to 
detect prohibited items in carry-on baggage and eliminates the 
requirement for passengers to remove electronics from their 
bags. As many of you have witnessed, it provides greatly 
improved imaging for our officers. This will have a significant 
positive impact on checkpoint effectiveness. The fiscal 2021 
request continues the CT program as we work toward the next 
contract that will include integrated automated screening 
lanes.
    The credential authentication technology improves our 
ability to validate the authenticity of drivers' licenses, 
passports, and other forms of acceptable ID presented by 
passengers. In addition, it provides near-real time data from 
our secure flight system that will ensure passengers receive 
the appropriate level of screening.
    This CAT technology is better and faster than the manual 
validation it replaces, and it complements the enforcement of 
the REAL ID Act pertaining to air travel that is scheduled to 
begin on October 1 of 2020, just under 7 months from now.
    REAL ID is critical for security, improving the reliability 
and accuracy of State-issued drivers' licenses. This prevents 
and deters terrorists' ability to use fraudulent documents.
    Thank you for your support of both of these critical 
acquisitions. Once complete, our checkpoints will be much more 
effective and efficient, and our officers will have better 
tools to screen passengers.
    Finally, with respect to checkpoint operations, I am 
pleased to announce that our TSA PreCheck enrollments just 
crossed the 10 million passenger threshold. This is a key 
milestone that exceeds the TSA Modernization Act requirement to 
have 10 million passengers enrolled by October 1.
    The Modernization Act's many provisions further strengthen 
transportation security. The majority of the 180 requirements 
in the act have been implemented, and I appreciate the 
excellent engagement we have had with your staff in working 
aggressively on implementation.
    One of the provisions of the act established the Surface 
Transportation Security Advisory Committee. This committee is 
fully formed, has met 3 times, and is off to a very good start, 
and it is an outstanding complement to the aviation security 
advisory committee.
    I am also pleased to report that the regulations on surface 
transportation security training are with the Federal Register 
for publication. This was an important goal both for this 
subcommittee and for TSA.
    I know you have questions on coronavirus. Supporting the 
President's task force to protect the United States from 
coronavirus has been our top priority. I appreciate the 
cooperation of carriers in airports in this effort. My entire 
leadership team has worked tirelessly to ensure our work force 
is protected, and we have followed the guidance provided by the 
CDC and OSHA. Both the Department and TSA have extensively 
messaged the work force to ensure everyone has the latest 
information.
    As you know, 3 of our TSOs at San Jose International 
Airport have tested positive for COVID-19. They are receiving 
medical care, and we are closely monitoring their status. We 
have identified their coworkers that have sustained contact 
with them within the past 14 days and placed those individuals 
on weather and safety leave until the 14-day window closes.
    We have thoroughly disinfected the work site as well, and 
we are working closely with the airport and public health 
officials, and we have immediately provided public notice of 
this situation.
    Let me close by thanking you for your strong support of the 
men and women of TSA, and I look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Pekoske follows:]
                 Prepared Statement of David P. Pekoske
                             March 11, 2020
    Good morning Chairman Correa, Ranking Member Lesko, and 
distinguished Members of the subcommittee. Thank you for inviting me to 
testify on the President's fiscal year 2021 budget request, which 
includes an $8.24 billion request for the Transportation Security 
Administration (TSA). I am honored to be here and grateful for the 
long-standing and constructive relationship that TSA enjoys with this 
subcommittee.
    TSA was established by the Aviation and Transportation Security Act 
(ATSA) in the wake of the September 11 attacks. The world has changed 
since then, but our fundamental mission, to protect the Nation's 
transportation systems to ensure freedom of movement for people and 
commerce, has not. To that end, as it relates to the current National 
response to the coronavirus disease 2019 (COVID-19) outbreak, TSA is 
supporting the President's Task Force by exercising its authority under 
ATSA to limit who may board commercial aircraft destined for the United 
States. We are also working tirelessly to ensure our work force is safe 
and following the guidance provided by the Centers for Disease Control 
and Occupational Safety and Health Administration to reduce the chance 
of infection.
    While we remain steadfast in providing the highest level of 
security for the United States across all modes of transportation, the 
scope and complexity of that goal has increased over the last 2 
decades. Today, the U.S. transportation systems accommodate 
approximately 965 million domestic and international aviation 
passengers per year; over 5.3 billion passengers traveling on both 
transit and over-the-road buses each year; more than 10.1 billion 
passenger trips on mass transit per year; 26 million students daily on 
school buses; and nearly 900,000 chemical shipments every day on 
trucks. Our interconnected transportation system and infrastructure 
includes approximately 440 Federalized airports; 126,000 miles of 
railroad tracks; 4.2 million miles of highway; 615,000 highway bridges; 
473 road tunnels; and 2.5 million miles of pipeline.
    Since TSA's creation, the modes and methods of terrorist attacks 
have become more decentralized and opportunistic than ever before. 
Aviation and transport hubs, however, remain highly-valued targets. Our 
adversaries are watching us, studying our vulnerabilities, and working 
hard to formulate new attack strategies to replace those that have 
failed. The daily threat environment TSA faces in the aviation, 
surface, and cybersecurity realms is persistent, pervasive, and 
constantly evolving. To meet the challenge created by such adversaries, 
we must innovate, deploy new solutions rapidly and effectively, and 
maximize the impact of our resources.
    Our continuing vision is to be an agile security agency, embodied 
by a professional work force that engages its partners and the American 
people to outmatch a dynamic threat. To that end, in April 2018, I 
issued the 2018-2026 TSA Strategy, which established 3 strategic 
priorities to guide the agency's work force through its 25th 
Anniversary: Improve Security and Safeguard the Transportation System; 
Accelerate Action; and Commit to Our People. I subsequently published 
my Administrator's Intent delineating short- and medium-term objectives 
for the first 3 years to achieve those priorities.
    Further empowering TSA to execute its mission, serve as a global 
leader in transportation, and become an employer of choice, the TSA 
Modernization Act of 2018, the agency's first comprehensive 
reauthorization since inception, was enacted in October 2018. The TSA 
Modernization Act authorized funding for fiscal years 2019, 2020, and 
2021; enhanced organizational structures, operations, and processes; 
and established a 5-year term for the administrator--a critically 
important factor for ensuring organizational stability and setting and 
achieving longer-term agency goals.
    As I come before you today, slightly more than halfway through my 
term as administrator and at a point where we are developing the next 
version of the Administrator's Intent, I want to thank Congress for the 
authorities provided to TSA through the TSA Modernization Act. 
Currently, TSA has completed more than 80 percent of the Act's 
requirements with deadlines. Consistent with the TSA Modernization Act, 
TSA elevated Headquarters leadership positions associated with Surface 
Transportation Security, Air Cargo Security, and Trusted and Registered 
Traveler Programs; established a Surface Transportation Security 
Advisory Committee and Domestic Explosives Detection Canine Breeding 
Workgroup to provide stakeholder input on critically important issues; 
and initiated pilot programs associated with the use of Computed 
Tomography units for the screening of air cargo and evaluating exit 
lane technology. TSA also conducted vulnerability and risk assessments 
of the surface transportation systems and stakeholder surveys that will 
inform risk-based budgeting and resource allocation.
    In short, I want to express my gratitude for the authorities and 
appropriations provided to TSA that have enabled us to execute our 
mission and make significant progress on a number of strategic 
priorities. Additionally, I want to use this opportunity to convey both 
what we have accomplished and our future goals and objectives. In 
fiscal year 2019, we----
  <bullet> Screened approximately 839 million aviation passengers (with 
        a peak volume of 2.8 million passengers in 1 day), representing 
        a 4.3 percent checkpoint volume increase from fiscal year 2018;
  <bullet> Screened 1.9 billion carry-on items and more than 510 
        million checked bags;
  <bullet> Procured 300 Computed Tomography (CT) units and began 
        preparation for the Nation-wide deployment of CT systems; and
  <bullet> Conducted 1,693 air carrier inspections at foreign airports, 
        144 foreign airport assessments, 60 pipeline critical facility 
        security reviews, 107 assessments of mass transit operator 
        security enhancements, and 182 assessments of security 
        enhancements by motor carriers;
    The fiscal year 2021 President's budget continues to support TSA's 
strategy to improve security and safeguard the Nation's transportation 
system, accelerate action, and reinforce TSA's commitment to its 
people. It supports $3.5 billion for our Transportation Security 
Officers (TSOs) at the Nation's airports. We thank Congress for the 
continued support you've provided for the TSO staffing increases needed 
to meet wait time standards as well as increasing volumes. This 
investment will allow us to maintain acceptable wait times, and 
mitigate risk associated with crowding at checkpoints.
    To complement a well-trained, sufficiently-sized work force, TSA is 
also focused on strengthening checkpoint operations through the 
development and acquisition of new technology. To this end, we are in 
the process of acquiring Computed Tomography (CT) units and Credential 
Authentication Technology (CAT) units, which represent significant 
technologic enhancements from the equipment currently used for identity 
verification and the screening of accessible property, and deploying 
them to airports Nation-wide as quickly as possible. CT technology will 
provide superior detection capability, will be more convenient for 
passengers, and eventually may eliminate the requirement to take 
electronics, liquids, aerosols, and gels out of carry-on bags.
    As of February 25, 2020, there are 65 CT units deployed to 
checkpoints with another 49 units supporting testing and research and 
development. The fiscal year 2021 President's budget provides $28.9 
million to support the procurement of 30 full-size CT units. The fiscal 
year 2021 funding will enable TSA to continue to accelerate the 
provision of CT technology to the field to enable our work force to 
more effectively and efficiently execute the mission.
    CAT also provides a significant security upgrade to the 
identification verification and prescreening process. Ultimately, CAT 
will enable Secure Flight screening status to be known and cross-
checked in near real time. In fiscal year 2019, TSA procured 505 CAT 
units, with 480 units deployed as of February 10, 2020. The fiscal year 
2021 President's budget includes $2.3 million that will bring the 
number of CAT units to 1,520 Nation-wide. The continued rollout of CAT 
units to checkpoints will improve TSA's ability to detect fraudulent 
documents and screen passengers based on assessed risk. The CAT unit 
has also served as a key tool for TSA's efforts to meet the TSA 
Modernization Act requirement for TSA PreCheck lanes to only serve 
passengers with Known Traveler Numbers, which will improve the TSA 
PreCheck passenger experience, and serve as a platform for testing 
voluntary facial matching technology.
    Finally, TSA strives through continued investment to improve the 
Advanced Imaging Technology (AIT) being used at our checkpoints today. 
The fiscal year 2021 President's budget provides $5 million to develop 
Next Gen AIT systems, and an additional $3 million of funding for 
research and development enhancements for Emerging Alarm Resolution 
technologies.
    Our front-line work force can better execute their security mission 
when equipped with the technology needed to counter evolving threats. 
While sustained technological improvement at our checkpoints is 
critically important, we are also committed to investing in our most 
important asset, our people. TSA is pleased that our employees provide 
input into the Federal Employee Viewpoint Survey, values their 
feedback, and acknowledges the concerns regarding pay dissatisfaction 
expressed through the survey. In an effort to address this long-
standing work force challenge, I commissioned a Blue-Ribbon Panel of 
public and private-sector human capital experts last year to identify 
problems and recommend solutions. In 2019, we received a number of 
recommendations from the panel, including that TSA should better 
leverage the authorities and flexibilities provided through ATSA rather 
than convert to the General Schedule.
    Recently, TSA has addressed locality-driven turnover issues through 
the use of retention incentives as a short-term fix for retaining TSOs 
in particularly competitive markets. Concurrently, we took measures to 
create career paths that aligned increased pay to enhanced training and 
skills by implementing the TSO Career Progression initiative. Through 
the fiscal year 2019 President's budget, TSA is transitioning away from 
relying predominantly on employing retention incentives at specific 
locations and instead adopting a more holistic and permanent solution 
by investing in career service pay, which will create a more 
predictable system for salary increases over a TSO's career. 
Additionally, the fiscal year 2021 budget supports the implementation 
of a second phase of our TSO Career Progression initiative, a merit-
based promotion to 7,500 top performing TSOs.
    The fiscal year 2021 President's budget funds 2 work force 
initiatives and represents a significant long-term commitment to our 
work force that will help address these concerns. First, the budget 
includes $23.6 million for Service Pay to fund predictable, annual pay 
increases for TSOs who demonstrate service experience. The budget also 
seeks $11.3 million for the second phase of TSO Career Progression, an 
investment that will enable TSA to provide a 3 percent pay increase to 
screeners who demonstrate higher skill levels in checkpoint operations. 
Although TSA has the legal authority to implement these work force 
improvements, TSA requires the budgetary resources to provide these 
additional work force improvements to TSOs. We are confident that the 
investment in Service Pay and funding of the second phase of the TSO 
Career Progression initiative demonstrate how we can employ our ATSA 
authorities to make TSA an employer of choice.
    Finally, in conjunction with the fiscal year 2021 President's 
budget, the administration has proposed raising the Aviation Passenger 
Security Fee, also known as the September 11 Security Fee, in order to 
fully cover the costs of aviation security by fiscal year 2018. The fee 
was created to cover the costs of aviation security, but in fiscal year 
2020 only covers 39 percent of today's costs. The proposal would 
increase the fee by $1, from $5.60 to $6.60 per one-way trip in fiscal 
year 2021 and from $6.60 to $8.25 in fiscal year 2022. This measure 
would generate $618 million in new revenue in fiscal year 2021 and 
close to $28 billion in new revenue over the next 10 years.
    Securing our Nation's transportation system is a complex task and 
we cannot do it alone. To achieve the priorities reflected within the 
fiscal year 2021 President's budget, we will continue to engage with 
industry and stakeholders, invest resources in our employees, and 
encourage the public to be part of the solution. Finally, through 
constructive oversight and dialog, we seek to partner with Congress as 
we work to secure all modes of transportation.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I look forward to your questions.

    Mr. Correa. Thank you, Mr. Pekoske.
    Now I would like to introduce our second witness, Admiral 
Schultz, who has served as the 26th commandant of the United 
States Coast Guard since June 2018. Before that, he served as 
commander of the Atlantic area from August 2016 to May 2018, 
where he was the operational commander of all Coast Guard 
missions spanning 5 Coast Guard districts and 40 States.
    Admiral Schultz has also served as director of operations 
for United States Southern Command, where he directed joint 
military operations in the Caribbean and Central and South 
America.
    Now I recognize the Admiral to summarize his statements for 
5 minutes.
    Welcome, sir.

 STATEMENT OF ADMIRAL KARL L. SCHULTZ, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Schultz. Good morning, Chairman Correa, Ranking 
Member Lesko, distinguished Members of the subcommittee. I 
appreciate the opportunity to testify today.
    On behalf of the men and women of the United States Coast 
Guard, please accept my profound thanks for your on-going and 
strong support.
    The fiscal year 2020 appropriation funded our top 
recapitalization projects and represents a meaningful 
downpayment on my highest priority, building and sustaining 
Coast Guard readiness.
    Today, your Coast Guard serves with impact across the globe 
to advance American security and prosperity, but, as noted, the 
maritime domain is not static, and our service must continually 
adapt to an increasingly complex and technologically-
sophisticated maritime environment. Great power, competition, 
well-financed and highly adaptive transnational criminal 
organizations, rapid technological advancement in cyber threats 
and complex natural disasters all threaten and challenge and 
strain maritime governance.
    As I reflect on the past year, I could not be prouder of 
our Coast Guard men and women who answer the call to serve. You 
saw us first on scene following Hurricane Dorian, the largest, 
most devastating storm to impact the government and 
commonwealth of the Bahamas. Millions watched in awe as the 
coastguardsmen fearlessly leapt onto a narcotics submarine in 
the eastern Pacific ocean. National security cutters Stratton 
and Bertholf plied East and South China Seas, including the 
Taiwan Straits, to promote free and open access to the oceans 
and adherence to the Rules-Based Order.
    Coast Guard service members rescued 24 trapped crew members 
from the overturned MV Golden Ray, including 4 confined for 
more than 30 hours in engine room spaces exceeding 130 degrees 
Fahrenheit.
    The demand on our Coast Guard services has never been 
higher, and these selfless feats typify what dedicated Coast 
Guard men and women do every day, yet these increasing demands 
amidst constrained resource levels inhibit our ability to build 
the Coast Guard the Nation truly needs.
    While I am encouraged by our collective focus to address 
these historic funding gaps, it is simply not enough. The path 
forward requires stable and predictable capital funding that 
aligns with acquisition schedules, and 5 percent annual 
operations and support funding increases to preserve 
operational agility, and restore and henceforth sustain our 
readiness.
    These essential steps address readiness across three key 
areas: People, assets and infrastructure, and technology.
    First on the people front. People are the cornerstone of 
our success, and I remain committed to creating the conditions 
that not only attract the best of our Nation's diverse talent 
but also provide an inclusive and rewarding environment that 
positions the Coast Guard to be an employer of choice in this 
highly competitive marketplace for talent.
    Building on the 2020 budget, the 2021 requests includes 
funding to expand diversity and inclusivity initiatives, 
modernize our antiquated training system, and continue our 
transition to electronic health records.
    On the assets and infrastructure front, similarly, 
continued efforts to recapitalize the Coast Guard's aging fleet 
of vessels, aircraft, and shore infrastructure is absolutely 
essential. Our sole operational heavy icebreaker, the 44-year 
old Polar Star, deployed to Antarctica this winter once again 
to break out McMurdo Station, I recently had the opportunity to 
visit with the crew in the ship.
    I am incredibly proud of the efforts of the men and women 
who sail aboard Polar Star, but I remain concerned that we are 
only one major engineering casualty away from being a Nation 
without any heavy icebreaking capability.
    The good news is that both the administration and the 
Congress have duly recognized the burden on our Polar Star 
shipmates, and that is why I am grateful for your continued 
support to fund the first polar security cutter. As noted by 
the Chairman, there is money in this budget for the second 
polar security cutter. We need to keep our foot on the 
accelerator there.
    With your support, we are also making significant progress 
on our offshore patrol cutter program, and I am pleased to 
announce the keel laying on the first ship in the class, the 
Argus, will be held next month in Florida.
    These cutters remain my highest acquisition priority, and 
continued progress is vital to replacing our fleet of medium-
endurance cutters, some that are more than a half-century old.
    In addition, the 2021 funding request includes help to 
address a portion of our $2 billion capital infrastructure 
backlog and also allows us to continue pressing forward on key 
initiatives like small unmanned aerial systems that really have 
proven game-changing on our National security cutters.
    On the technology front, to build and sustain the Coast 
Guard the Nation needs, technological competence is critical, 
yet years of constrained budgets have brought our IT systems to 
the brink of failure. This 2021 request includes long-overdue 
initial investments to begin replacing our failing IT 
infrastructure and to improve underway connectivity essential 
to our sailors to be able to do their work at sea. Downgraded 
IT readiness puts lives at risk, and we are embarking upon a 
whole-of-service effort to ensure our people are supported by 
reliable, mobile, and integrated information systems. These are 
meaningful first steps, and I am truly grateful.
    In closing, I am honored to be here today. I appreciate the 
opportunity to advocate for the men and women of the Coast 
Guard. Your continued support is absolutely essential to 
building the Coast Guard our Nation needs and for our folks to 
live up to the motto we hold, Semper Paratus, always ready.
    I thank you for the opportunity. I look forward to your 
questions.
    [The prepared statement of Admiral Schultz follows:]
                 Prepared Statement of Karl L. Schultz
                             March 11, 2020
                              introduction
    Chairman Correa and distinguished Members of the subcommittee, I 
appreciate the opportunity to testify today and thank you for your 
enduring support of the United States Coast Guard. In particular, the 
significant investments you provided in the fiscal year 2020 
Consolidated Appropriations Act represent meaningful contributions to 
restore Coast Guard readiness and set the conditions for building the 
Coast Guard the Nation needs, and the Armed Force our extraordinary 
service members and their families deserve.
    As a maritime nation, America's security and prosperity are 
inextricably linked to our unfettered access to oceans, inland rivers, 
deep water ports, and other connecting waterways. As we have for 230 
years, the Coast Guard addresses National priorities and emerging 
threats in the homeland and across the globe--saving those in peril, 
thwarting illicit and coercive maritime activities, and fostering 
economic prosperity and environmental stewardship. Yet, the maritime 
domain in which we operate is becoming increasingly complicated. Great-
power competition; well-financed and highly adaptive transnational 
criminal organizations (TCOs); rapid technological advancements and 
cyber threats in our seaports and aboard ships calling on those 
seaports; and natural disasters are all straining global systems for 
maritime governance.
    Accordingly, demand for Coast Guard services has never been higher, 
and I am extremely proud of the mission excellence we delivered last 
year. We surged forces in response to natural disasters around the 
world--including the devastating impacts from Hurricane Dorian--saving 
lives and providing leadership in times of crisis. In support of the 
Department of Defense (DoD), Patrol Forces Southwest Asia crews 
continued our enduring commitment to CENTCOM, and the National Security 
Cutter BERTHOLF plied the Taiwan Straits to promote ``Rules Based 
Order'' in support of INDOPACOM. We employed new capabilities and 
techniques, including the use of shipboard-based unmanned aerial 
systems, to combat cartels who use narco-submarines and other illicit 
craft to smuggle drugs and contraband destined for U.S. soil. We 
continued to work across the Government, international forums, and 
industry to keep pace with an increasingly sophisticated maritime 
domain, including complex cyber terrain. We promoted ``free and open 
seas'' and modeled adherence to the ``rules-based order'' in the global 
commons, and once again, sent our aging icebreakers to the Arctic and 
Antarctic to project sovereign presence and advance our National 
interests in these increasingly competitive and important strategic 
regions.
    While I remain incredibly proud of the exceptional service the 
Coast Guard provides to the American taxpayer, increasing mission 
demands and constrained resource levels continue to challenge Service 
readiness for both steady-state missions and contingency operations. 
Hence, READINESS REMAINS MY TOP PRIORITY, and while I am encouraged by 
our collective focus to address funding gaps and shortfalls, much work 
remains to set the Service on a sustainable path going forward. 
Notably, the strong support we received in the fiscal year 2020 
appropriation enabled the Coast Guard to begin addressing long-standing 
concerns, and now our fiscal year 2021 budget request before the 
Congress reflects our continued keen focus on READINESS.
                           restore readiness
    People.--Building and sustaining a ``mission-ready total work 
force'' is the cornerstone of our success, and I remain committed to 
providing our dedicated and talented people with the tools, resources, 
and policies that will enable them to professionally thrive and 
personally grow. In fiscal year 2019, we introduced a number of 
personnel management policies to broaden diversity and enhance 
inclusion across the Service, as well other initiatives to improve the 
support we provide our members and their families. Through your support 
in the fiscal year 2020 appropriation, the Coast Guard continued our 
transition to Electronic Health Records, increased child care subsidies 
for military families living in high-cost areas, expanded recruiting 
and readiness initiatives, and increased throughput at flight school 
for aspiring Coast Guard aviators.
    Going forward, we will continue to pursue policies and practices 
that maximize readiness and enable us to recruit, train, and retain a 
work force increasingly more representative of the American public we 
serve. We remain committed to creating an environment that not only 
attracts the best of our Nation's diverse talent, but also provides an 
inclusive environment and rich experience that positions the Coast 
Guard to be an employer of choice in a highly competitive marketplace 
for talent. To this end, our fiscal year 2021 budget requests includes 
nearly $175 million for pay and benefits; $13 million for work force 
initiatives to modernize our antiquated training system, and to expand 
diversity and inclusion initiatives; and $2 million to continue our 
transition to Electronic Health Records.
    Assets and Infrastructure.--Recapitalizing the Coast Guard's aging 
fleet of vessels, aircraft, and shore infrastructure is critical to 
success. With the support of the administration and Congress, we are 
making significant progress toward building a Polar Security Cutter 
(PSC), the Nation's first heavy icebreaker in almost half a century. 
April 2019 saw the award of the Detailed Design and Construction (DD&C) 
contract for the construction of the first of 3 heavy icebreaker PSCs. 
The fiscal year 2021 appropriation provided funding for long lead-time 
materials for the second PSC, and now this fiscal year 2021 President's 
budget proposes fully funding its construction.
    Further, the fiscal year 2021 budget request includes $546 million 
for the Offshore Patrol Cutter (OPC) program, the Coast Guard's highest 
acquisition priority. Continued progress on the OPC program is 
absolutely vital to recapitalizing our legacy fleet of 210-foot and 
270-foot Medium Endurance Cutters (MECs), some of which have been in 
service for over 50 years! The program of record of 25 OPCs will 
comprise 70 percent of the Coast Guard's future offshore surface 
presence for decades to come. Coupled with the extended range and 
capability of the Coast Guard's National Security Cutter (NSC), and the 
enhanced coastal patrol and expeditionary capabilities of the Fast 
Response Cutter (FRC) fleet, the Service will be well-positioned to 
effectively enforce Federal laws, secure our maritime borders, disrupt 
TCOs, and respond to modern-day threats.
    The nature of Coast Guard operations requires the Service to 
strategically and dynamically allocate operational resources in 
response to emergent National security, economic prosperity, or safety 
of life missions. In addition to our top surface acquisitions, our 
fiscal year 2021 budget request includes $154 million for aviation 
initiatives, including the missionization of medium-range fixed-wing 
surveillance aircraft; the sustainment and modernization of MH-60 and 
MH-65 rotary wing fleets; and the deployment of Small Unmanned Aircraft 
Systems on-board our NSCs. To this end, the fiscal year 2021 budget 
also requests $29 million to convert Air Station Borinquen, Puerto Rico 
from MH-65 to MH-60 helicopters, capitalizing on the increased range 
and capabilities of that aircraft across the Caribbean.
    I am also particularly mindful of the condition of our aging shore 
infrastructure and the adverse effects it has on readiness across all 
mission areas. The Coast Guard currently has a $2 billion shore 
infrastructure construction backlog that includes cutter piers; 
sectors, stations, aviation and base facilities; training centers; and 
military housing units.
    Your support makes a substantive impact. In 2018 and 2019, the 
Coast Guard completed $152 million of shore infrastructure 
recapitalization, improving the physical condition and resilience of 
facilities in Massachusetts, New York, New Jersey, North Carolina, 
California, Oregon, and Hawaii. We awarded contracts for another $73 
million of construction projects in Maine, Virginia, South Carolina, 
Texas, California, Alaska, and Guam. We also appreciate the support of 
Congress for more than $70 million in funding in the fiscal year 2020 
appropriation to support critical investments in California, 
Washington, and Hawaii. And our fiscal year 2021 budget request builds 
upon this momentum by including $140 million for family housing; 
aviation and shore forces readiness; physical security; and vessel 
homeport infrastructure in South Carolina, Washington, Florida, New 
York, Pennsylvania, Maine, and Maryland.
    Technology.--Rapid maritime industrial innovation and sophisticated 
adversaries are changing the threat landscape of maritime operations. 
In order to meet these challenges, the Coast Guard must improve 
antiquated hardware and software, as well as introduce a data analytics 
capability. Years of difficult investment trade-offs in a constrained 
budget environment have brought our information technology systems to 
the brink of failure. Just this past summer, over 95 vital systems went 
off-line for several days due to a single server malfunction, impacting 
our ability to save American citizens, thwart criminals, and even 
defend the Nation.
    Degraded readiness puts lives at risk, and we are embarking upon a 
``Whole-of-Service'' effort to ensure our dedicated people are 
supported by a reliable, mobile, and integrated information system. The 
fiscal year 2021 budget requests over $30 million to begin replacing 
the Coast Guard's failing information technology infrastructure, and to 
improve under way connectivity to our major cutter fleet. These are the 
first steps, but they cannot be the last--going forward we must invest 
in our network architecture, hardware, software, mobile technologies, 
and the modern data analytics capabilities needed to ensure mission 
success in the 21st Century.
                               conclusion
    The Coast Guard is in the midst of the largest recapitalization 
effort in its history--an effort that is critical to building the Coast 
Guard the Nation needs in order to meet increasingly complex National 
and economic security requirements. We must maintain momentum.
    However, new assets alone are insufficient to sustain a mission-
ready Coast Guard. Readiness requires investments in people, assets, 
infrastructure, and technology. With the continued support of the 
administration and Congress, your Coast Guard will live up to our 
motto--Semper Paratus--Always Ready. Thank you for your enduring 
support of the men and women of the Coast Guard.
            ATTACHMENT.--FISCAL YEAR 2021 BUDGET HIGHLIGHTS
                           budget priorities
  <bullet> Modernize Operational Capabilities.--As a branch of the U.S. 
        Armed Forces, a law enforcement organization, a regulatory 
        agency, a member of the U.S. intelligence community, and a 
        first responder, the Coast Guard is in high demand to meet the 
        National Security needs of a changing global strategic 
        environment.
  <bullet> Restore Readiness.--Every Armed Force faces readiness 
        challenges, and the Coast Guard is no exception. While the 
        Coast Guard's on-going recapitalization efforts are essential 
        to meeting the needs of the Nation, they must be coupled with 
        targeted investments in people, assets and infrastructure, and 
        technology to ensure a mission-ready Coast Guard.
    The fiscal year 2021 budget requests $8.38 billion for Operations 
and Support (O&S) and $1.64 billion for Procurement, Construction, and 
Improvements (PC&I). Budget highlights include:
                   modernize operational capabilities
  <bullet> $1.18 billion for vessels, including: $546 million for the 
        construction of OPC No. 3 as well as long lead time materials 
        for OPC No. 4; $555 million for PSC, including construction of 
        PSC No. 2; $31 million for post-delivery activities for 
        National Security Cutters (NSCs) No. 8-11; and $25 million for 
        Waterways Commerce Cutter (WCC) to recapitalize the 
        capabilities provided by the current fleet of inland tenders 
        and barges (PC&I).
  <bullet> $67 million for shore infrastructure improvements to support 
        new acquisitions, including the PSC homeport in Seattle, WA, 
        and infrastructure to support a fifth NSC in Charleston, SC 
        (PC&I).
  <bullet> $55 million for new assets including: Operations and 
        maintenance funds for Fast Response Cutters (FRCs) No. 43-44 
        and NSC No. 9; crews for FRC No. 44 and OPC No. 1; shoreside 
        personnel and support for FRCs No. 19-20, 34-35, 39-40, and OPC 
        No. 1; and support for NSC capabilities, including tactical 
        cryptology and small Unmanned Aircraft Systems (sUAS) (O&S).
  <bullet> $33 million to expand Coast Guard cyber operations, 
        including: Cyber enabling operations; facilitating prevention, 
        response, and resilience for cyber incidents in the Marine 
        Transportation System; and defense of Coast Guard networks 
        (O&S).
                           restore readiness
People
  <bullet> $116 million for requisite military pay and allowances per 
        National Defense Authorization Act requirements, maintaining 
        parity with the military branches within the Department of 
        Defense, and $59 million for civilian pay and benefits (O&S).
  <bullet> $15 million for work force readiness, including recruiting, 
        retention, Diversity and Inclusion, training, and health care 
        (O&S).
Assets and Infrastructure
  <bullet> $154 million to sustain Coast Guard aircraft, including: $20 
        million to support service life extensions for MH-60T 
        helicopters; $45 million for a service life extension and 
        avionics upgrade on the MH-65 helicopter fleet; and $78 million 
        for missionization of fixed-wing HC-27J and HC-144A aircraft 
        (PC&I).
  <bullet> $100 million to sustain Coast Guard cutters and boats, 
        including $15 million to support service life extension of CGC 
        POLAR STAR and $83 million to support service life extension of 
        the 47-foot motor life boats and 270-foot medium endurance 
        cutters (PC&I).
  <bullet> $75 million for shore infrastructure projects supporting air 
        operations in the National Capital Region and Clearwater, FL; 
        facility upgrades in Buffalo, NY, and Philadelphia, PA; and 
        construction of housing in Perry, ME (PC&I).
  <bullet> $38 million to transition Air Station Borinquen, Puerto Rico 
        from MH-65 to MH-60 helicopters and to improve the operational 
        availability of fixed and rotary-wing aircraft (O&S).
Technology
  <bullet> $24 million to improve the readiness of the Coast Guard's 
        information technology infrastructure (O&S).
  <bullet> $17 million for the enterprise mission platform, including 
        military satellite and secure mobile communications (PC&I).
  <bullet> $7 million for cutter underway connectivity improvements to 
        meet mission requirements (O&S).

    Mr. Correa. Thank you very much, Admiral.
    I want to thank all the witnesses for your testimony, and I 
will remind each Member that we each have 5 minutes to question 
the panel.
    I will now recognize myself for 5 minutes of questions, and 
I would like to start with Mr. Pekoske.
    You mentioned earlier 3 officers in San Jose were 
identified as testing positive?
    Mr. Pekoske. Yes, sir. Three officers identified as testing 
positive, and we had yesterday received the confirmed test 
results. So we were certain that they were positive for COVID-
19.
    What we did--and none of these officers was at the 
workplace. Clearly they were with medical care. All 3 
officers--the last time they were at the airport for the first 
officer was the 29th of February; the second officer, the 2nd 
of March; and, the third officer, the 21st of February. So, you 
know, we looked very carefully at that 14-day window where the 
disease is transmissible. What we did, as soon as we knew we 
had 3 cases, we did what we call contact tracing with everybody 
else that works at the airport. So, as----
    Mr. Correa. So you are attempting to identify passengers 
that may have interacted with those officers?
    Mr. Pekoske. We do not attempt to identify passengers, sir. 
We first try to identify the members of our work force who 
would have interacted with those officers because we send those 
members--if it has been within that 14-day window, we send 
those members on weather and safety leave. So we send them home 
so that we can contain the virus to the folks that already----
    Mr. Correa. How many TSO officers are quarantined right 
now?
    Mr. Pekoske. We have under a hundred quarantined right now. 
It is really not quarantined, sir. It is they are at home with 
instructions to limit their visits to stores and large public 
gatherings.
    Mr. Correa. What would happen if all TSO officers at one 
location need to be quarantined?
    Mr. Pekoske. If all need to be quarantined--I don't think 
that is likely, although it is certainly possible--we have a 
National deployment force.
    Mr. Correa. I just want to reassure the public that we are 
on top of this and that we are doing----
    Mr. Pekoske. Yes, sir.
    Mr. Correa [continuing]. What we need to do to protect the 
workers as well as the public.
    Mr. Pekoske. Yes, sir. Ensuring the safety of my work force 
is my top priority. What you will always see TSA do--I think we 
have a very good history of doing this--is, when there is an 
issue, we publicly release the information on the issue. So the 
public is advised of the situation that we have and really what 
we are doing to address it.
    Mr. Correa. You know, when somebody is touched by 
coronavirus, we want to make sure that a worker doesn't have to 
choose between paying for their health care, paying for their 
deductible, so to speak, for being taken care of, and also 
having to choose between paying their bills and coming to work.
    So, last year, TSA stopped paying full-time share of health 
insurance premiums to part-time TSO workers. So, if a part-time 
TSO worker is infected, are they going to come in to work or 
not?
    Mr. Pekoske. Well, if anybody is infected, you know, our 
guidance is not to come in to work, to seek medical care with 
their own physician, and, you know, with respect to the medical 
coverage----
    Mr. Correa. I want to make sure that costs, paying for 
their health is not an issue, so would you, today, commit to 
restoring the full-time Federal share of health insurance 
premiums for some of these--for the employees?
    Mr. Pekoske. So we made a decision last year, consistent 
with practice throughout Government and also in the private 
sector, that, if you are a part-time employee, you are not 
eligible for full-time health care benefits, but what we have 
done, with respect to the economic incentives that you are 
asking about----
    Mr. Correa. Given this situation right now, if you are 
infected, it is not a part-time infection; it is you are 
infected.
    Mr. Pekoske. If you are infected, yes, sir, and there is a 
course of treatment depending on the severity of the----
    Mr. Correa. Not a part-time job anymore; it is your life--
your full-time life----
    Mr. Pekoske. That is correct.
    Mr. Correa [continuing]. That is affecting you, so----
    Mr. Pekoske. Right.
    Mr. Correa [continuing]. That is why I want to make sure 
that you are committed to restoring full-time Federal share of 
helping, and even for part-time workers.
    Mr. Pekoske. Sir, I have no intention of restoring health 
care coverage for part-time workers. I think that was a good 
decision. We will certainly take care of our employees to the 
best of our ability, and we provide robust guidance to our 
entire work force with respect to how they prevent the disease 
in the first place.
    Mr. Correa. We need to address this issue again because I 
want to make sure we give the incentive to our employees to do 
the right thing, and costs to a part-time employee who may be 
infected become a decision point when it comes to health care.
    Mr. Pekoske. Mr. Chairman, with respect to costs, you know, 
I mentioned that, for those that were in contact with the 
officers that confirmed positive on a COVID-19 test, that we 
sent them on weather and safety leave. That is fully paid 
leave. It doesn't come out of their sick leave balance.
    That was intentionally designed so that officers didn't 
trade off finances for self-reporting, and we think that is 
very much in the interests of our officers, the entire work 
force, and the traveling public.
    Mr. Correa. I am running out of time. So let me be 
respectful to my other colleagues here, but I want to turn to 
the issue of the Federal Employees Compensation Act, or FECA, 
full coverage of related medical treatment and any wage loss, 
disability related to illness. Would you commit to providing 
all TSO officers access to FECA?
    Mr. Pekoske. Sir, I am not familiar with the provisions of 
that law. I would have to look at that law to be able to answer 
the question. I would be happy to answer that for the----
    Mr. Correa. Again, my goal and I think our goal in terms of 
good public policy is to make sure that employees don't have to 
choose between paying their bills and coming to work when they 
know they may be infected.
    Mr. Pekoske. Yes, sir. We provide every incentive for 
employees if they--and I have done several videos to the entire 
work force on this topic of, if you are not feeling well, don't 
come to work. That is an excused absence. Don't come to work.
    Mr. Correa. Thank you very much, and I recognize Mrs. Lesko 
for 5 minutes of questions.
    Mrs. Lesko. Thank you, Mr. Chairman.
    First, I want to say thank you to both of you for being 
here and answering questions, and for your service.
    I want to compliment the TSA or TSOs. I usually travel 
between Phoenix and DCA, and I have to tell you, at those 
airports, they are always very courteous, professional. They do 
a great job.
    I think, in your testimony, you said the budget allows you 
to do pay increases for TSOs, and can you explain to me a 
little bit more, since you are not under Title V, which is the 
Government schedule, are you able to pay people more that are 
doing a good job? Or tell me how this works.
    Mr. Pekoske. Yes, ma'am. We are able to pay people whatever 
I determine the appropriate level of pay needs to be, and, you 
know, of course that is balanced against what--how much money I 
have in my accounts to be able to do that.
    The key issue here with respect to work force pay is the 
funding. The authorities, in my opinion, that TSA has are much, 
much better than the funding--than the authorities, rather, 
under Title V.
    With respect to the incentives that are in the budget, for 
example, we put longevity pay in there, as I mentioned in my 
opening statement. This provides for annual either 2, 1.5, or 1 
percent raises depending on where you are in one of our pay 
bands every single year. By contrast, in Title V, that is not 
every single year as you get more senior in the general 
schedule grades.
    The other thing that we are emphasizing is career 
progression because I think it is important that we point a 
path for everybody in the agency as to how their career could 
progress and how they will be financially rewarded as they 
acquire new skills. That career progression piece is called E-3 
pay, and that provides 3 percent. That is a pretty good pay 
raise once you acquire advanced resolution skills. That applies 
to 7,500 officers in our biggest pay band.
    The final pay incentive issue is what we call the model 
officer recognition program. Every year, we will identify the 
top 5 percent of our performers and provide those individuals 
an additional pay raise beyond longevity, if they are in the E 
band, potentially beyond career progression, for being in the 
top 5 percent, which is a significant accomplishment to be in 
the top 5 percent of your peers.
    Mrs. Lesko. Commandant Schultz, what is the Coast Guard 
doing? How are you involved in the coronavirus issue? How is 
the Coast Guard involved?
    Admiral Schultz. Well, Ranking Member Lesko, thank you for 
the question.
    First and foremost, like TSA, our No. 1 priority is the 
health and safety of the American people. We are looking 
Nation-wide to support CDC and other front-line organizations 
on the medical front in terms of prevention, protecting, 
mitigating spread. You know, clearly, you know, maritime 
traffic on cruise ships have been a very focal area. We were 
involved with our 11th district commander in working with all 
the port stakeholders as the Grand Princess was brought into 
Oakland the other day.
    So we are providing maritime technical expertise to the 
Vice President's task force. We are working the issues on the 
waterfront. There are many stakeholders, as you both know, from 
IOWU union folks, to the port stakeholders, that those cruise 
ships, typically in San Francisco, for example, tie up over in 
downtown San Francisco. It took a lot of moving parts that the 
Coast Guard is involved in. So we will continue to focus, No. 
1, on public safety; No. 2, lend our expertise as a maritime--
Federal maritime agency that tends to be a leadership in many 
of these spaces, and that is where we have been focusing our 
efforts, ma'am.
    Mrs. Lesko. Thank you. Yes, that whole cruise ship thing, I 
guess I could get a good bargain on a cruise right now if I 
wanted to.
    Admiral Schultz. Yes, ma'am.
    Mrs. Lesko. But I don't think I am going to chance it, 
quite frankly.
    On the--Mr. Pekoske, on the budget, there were some 
declines in the budget over the enacted budget levels for this 
year, and how do you think that is going to affect--like I 
think there was a budget decline on the credential 
authentication technology, the CAT technology. I am all for 
innovation--I think I told you this before--and technology. I 
think, in the long run, that it is really going to improve 
things. With this, credential authentication technology, I 
think it will help identify people that maybe we don't want in 
our country, and maybe it can partner more with agencies like 
CDC.
    So I am a little bit concerned that the funding on some of 
these things is going down, but maybe you can explain why that 
is OK. Did we have too much funding before? Are we behind in 
installing some of this technology?
    Mr. Pekoske. Well, Ranking Member Lesko, the credential 
authentication technology, you are exactly right. I mean, it is 
a significant improvement in our capability of the checkpoint. 
For me--and I speak for all of my officers when I say this--
give me a tool that allows me to do my job better, because 
everybody wants to do as good a job as they can.
    The other key part of the credential authentication 
technology is it is connected to our secure flight system, so 
you get a live read of what a person's risk status is, and you 
also have their flight information automatically. So, for 
passengers, we don't even need a boarding pass once----
    Mrs. Lesko. Yes.
    Mr. Pekoske [continuing]. This is installed because we have 
all that information in front of us.
    With respect to the extension of time it takes to 
implement, that is simply a budget ceiling. We all operate 
within budget ceilings, and we have to make some difficult 
choices as to, you know, what speed at which we are going to 
fund certain acquisition programs, but both the CT and 
certainly the CAT are critical for us.
    The other one that is going to be very important, and there 
is some money in the budget to start the research and 
development on is that on-body anomaly detection process. That 
is the third piece of major technology that we are looking at.
    Mrs. Lesko. Well, and that is good. I think we think the 
same on employing technology, and you are right; we have to 
live within our budget, just like our family has to live within 
our budget. Unfortunately the Federal Government doesn't do as 
good of a job as, you know, we do in our families. We are too 
much--way too much in debt and deficit. So I understand that we 
have to not always just keep increasing our budget, but it is 
important, and so I want to thank both of you again for doing 
the job that you are doing. Your employees are doing great 
jobs, and thank you.
    I yield back.
    Mr. Correa. Thank you, Mrs. Lesko.
    Now I recognize Ms. Barragan for 5 minutes of questions.
    Ms. Barragan. Thank you to both of you gentlemen for being 
here today. I wanted to also thank you--thank the Coast Guard. 
I represent the port of Los Angeles and have the Coast Guard 
there. So the men and the women and the work that you do is so 
critically important. So I just wanted to take a moment to say 
thank you.
    Admiral, can you explain--and I apologize if I missed 
this--what the Coast Guard's role is in the coronavirus?
    Admiral Schultz. Congresswoman Barragan, absolutely. I 
mentioned that before, but just a quick recap.
    So we are, first and foremost, like our TSA colleagues, 
public safety is focus No. 1. No. 2, it is really about, you 
know, Nation-wide efforts to prevent, protect, and mitigate 
the--you know, the impacts of the coronavirus.
    We are working--and I am represented with Secretary Wolf, 
the Secretaries on the President's, Vice President's task 
force. We are informing that with maritime technical expertise. 
In your port, for example, you know, we have been paying 
attention to--it was the Regal Princess down there, and it is 
the Grand Princess up in San Francisco. Each one of those 
vessel arrivals, getting--you know, interacting with CDC--and 
we have used up in San Francisco a Coast Guard patrol boat that 
is ferrying out CDC experts. We did some medical evacuations. 
We are involved with all the port stakeholders to tackle these 
very complicated cases that come----
    Ms. Barragan. So are you--I didn't mean to interrupt you, 
but are you--is the Coast Guard screening passengers as they 
are coming off, or is that just----
    Admiral Schultz. Yes, ma'am.
    Ms. Barragan. So how does that work generally?
    Admiral Schultz. We--there are about 4,000 vessel arrivals 
in the United States on a monthly basis. We look at all of 
them. There is a criteria called 96-hour advance notice of 
arrival.
    So CBP looks at cargo. We look at people. So we are looking 
at vessels that left and, you know, they are--say it is a 
cruise ship. If their transit is more than 14 days, there is 
different criteria than if you are inside that 14-day period. 
If it is inside 14 days, you don't come to the dock.
    We are looking at cargo vessels. So, in the port of Los 
Angeles, Long Beach, we look at all those cargo operations 
coming in. We find out if there is anybody on board that is 
presenting with any type of medical symptoms. We work with CDC, 
that they are met either by CDC folks or local health reps. 
Typically those cargo operations have been allowed to proceed. 
The crew members are restricted to the confines of the ship to 
port. Ship does its business and gets back to sea. So we are 
very much interfacing, ma'am, on the waterfront with all those 
stakeholders.
    Ms. Barragan. I think I read somewhere that it is the Coast 
Guard that is airlifting kits to these vessels--rather, to the 
cruise ships. Is that right?
    Admiral Schultz. Ma'am, we have done some of that. We had--
we actually--there was National Guard involved with the Grand 
Princess, with some helicopter operations. We were involved 
with some of that.
    We did some things with some of our patrol boats that tie 
up at Yerba Buena Island in San Francisco, and they ferried out 
CDC folks. They ferried out test kits. They ferry--you know, 
they have been involved in the logistics to support these 
operations.
    Ms. Barragan. Is it your understanding that the Coast Guard 
could have access to some of the resources provided by the $8.3 
billion COVID-19 supplemental?
    Admiral Schultz. So, Congresswoman, to date, my 
understanding of it is we are keeping a running account of what 
our Coast Guard bills are here for possible subsequent funding. 
We weren't specifically part of that initial $8.3 billion, but 
we are tracking our bills, and, if there is subsequent 
supplemental on this front, we would put our voice into that. 
But, to date, we are managing this inside our existing funding 
profile.
    Ms. Barragan. So, just to be clear, your understanding is 
you don't qualify for any of the $8.3 billion that Congress 
just passed, but you are keeping track of your dollars to 
figure out what else we can ask for where the Coast Guard can 
get their costs back?
    Admiral Schultz. Yes, ma'am. We are able to do the missions 
we are doing to support this today, inside our existing 
profile. I would argue we would say we have been funded for 
what we continue to do, but we are tracking costs here if there 
is a subsequent, you know, appropriation on this front.
    Ms. Barragan. Great. The administration assures us that the 
response to the COVID-19 is a whole-of-Government approach. The 
Centers for Disease Control has put out guidance for 
workplaces. Mr. Administrator, is TSA abiding by the CDC 
workplace guidelines?
    Mr. Pekoske. Yes, ma'am, we are. We abide by CDC and also 
OSHA guidelines with respect to the workplace.
    Ms. Barragan. Are TSOs required to change gloves between 
each pat-down of a passenger?
    Mr. Pekoske. Not between each pat-down, but we have 
increased the frequency with which they change gloves. We have 
also made a number of changes--for example, some of the 
officers don't wear gloves. If you look at the person that is 
the first person that you see, you give your driver's license 
or passport to, typically they have not worn gloves, but we 
have made that a requirement to wear gloves.
    Ms. Barragan. So everybody does wear gloves now?
    Mr. Pekoske. They do. Those blue gloves that you see.
    Ms. Barragan. What is the rationale on how often they 
should be changing their gloves if they are not doing it 
between each passenger?
    Mr. Pekoske. The rationale is that, you know, based on 
medical guidance, we don't think it is necessary to change 
after every passenger. You know, we do have different disposal 
requirements now given the COVID threat that we are facing off 
of the disposal of those gloves, but we just don't think it is 
necessary medically to do that.
    Ms. Barragan. Thank you. I yield back.
    Mr. Correa. Thank you.
    Now I recognize Mr. Van Drew from New Jersey for 5 minutes 
of questions.
    Mr. Van Drew. Thank you, Chairman.
    First of all, I want to thank both of you for the work that 
you do. It is relatively easy to be up here and ask hard 
questions, but it is awful hard to get all these goals 
accomplished, and this has been a particularly difficult time 
in our history in general, not only because of the coronavirus 
but because of all the challenges that you have.
    I am very proud of the Coast Guard particularly because of 
all the interaction I have had with them in my district and all 
the good they have done for Cape May County and the Atlantic 
County and the entire area, and of course, you know, the 
administrator, all the work that your folks do day in, day out, 
with tremendous challenge and a lot of hard work. So thank you, 
and I am proud of your people. I know you are, too.
    One point I wanted to make. I know, in the beginning of 
this, the very beginning of this discussion, there was the idea 
of--that perhaps you are underfunded, and I would maintain that 
I would like to see more funds for both of you, but it 
wouldn't, in my mind, be at the expense of maintaining our 
borders. I think we have to maintain our air, our sea, and our 
borders; they are all important. Just to express for the record 
that my view isn't that the wall is, you know, unimportant or a 
waste, or that technology at the border is a waste either.
    I think we can see the effect that the world can have, 
especially in our new world, on this global economy, on this 
global existence we have, on all of us, in so many ways, and, 
quite frankly, we do have to maintain our borders and our 
security both. So I just wanted to express that as well before 
I made my--put forward my questions.
    So it is good to see both of you, and I thank you for 
coming in to testify today, and I thank you for your work to 
make sure that our Coast Guard is strategically and 
operationally on course. As you know, my district has some very 
important Coast Guard assets. This includes the training center 
at Cape May, which is home to all of the Coast Guard's 
enlisted, extensions in the air station, Atlantic City, the 
largest air station on the Coast Guard's 5 operational 
district.
    I am a strong supporter of the Coast Guard, and I want to 
make sure that these men and these women have the 
infrastructure they need to protect our Nation's maritime 
systems. I do, however, understand that there is a very large 
deficit in the Coast Guard's PC&I budget for infrastructure.
    Can you remark upon the infrastructure deficit in a broad 
sense, and then focus on some of the infrastructure needs that 
are specific to my district?
    Admiral Schultz. Congressman Van Drew, thanks for the 
question, and thanks for your strong support for our men and 
women.
    We do have a large capital backlog of major infrastructure 
projects. It is up around the ballpark of $2 billion. So that 
is something--and, if you look at a healthy organization and 
you sort-of benchmark across Government, organizations tend to 
bite into their capital accounts about 2 percent a year. We are 
nowhere close to that. We are, you know, in tenths of a 
percentage point. So this is a difficult problem today, and it 
is an increasingly difficult problem unless we start getting 
after that.
    You know, from a standpoint of employees in the Coast 
Guard, it is competitive disadvantage. You know, folks want to 
come to places and see investments in the facilities that work 
at Cape May. There is no current 2021 project specifically 
targeting Cape May. Cape May has been on what we call our 
unfunded priorities list that we provide to the Congress, you 
know, in every year, and it shows what would be those next 
things.
    You know, we work to a top line in each budget cycle, and 
then there is those things, if you had a little more space, 
what would you do? We continue to carry some money, some 
projects on that list for barracks upgrades and other things at 
Cape May. So Cape May clearly is a place that warrants some 
facility--as we did the puts and takes in the 2021 budget 
build, you know, that did not rise to the top.
    This year, in the budget build, we will get after some 
facility upgrades. There is what we call major acquisition 
shore money that allow us to put those icebreakers up in 
Seattle. We have to prepare the port there, our base there, to 
receive those vessels. We are doing the same thing in 
Charleston.
    I announced recently that there is 3 more National 
securities going to Charleston. That is going to be another hub 
of excellence for us. We are hoping that will be a good place 
for Coast Guard families looking forward. There is monies here 
as we do this air capital defense, what we call the NCRAD 
mission, the National Capital Region Air Defense Mission, the 
helicopters you see around Washington.
    We are bouncing those. We are flying those out of Air 
Station Washington, out of a temporary facility. We are looking 
to get into hangar 14 out there at Andrews. There is funding in 
the 2021 budget for that.
    So there is some positive progress, I would say, sir, on 
biting into this shore infrastructure backlog, but it has to be 
sustained. We have got to continue to do this on a recurring 
basis every year to really start driving that down crew.
    Mr. Van Drew. We won't forget Cape May.
    Admiral Schultz. We won't forget Cape May, sir.
    Mr. Van Drew. All right. Last year, there was a budget 
request submitted by the Coast Guard for barracks renovations 
at the training center in Cape May. These renovations would 
modernize the barracks and ensure that both male and female 
Coast Guard trainees are accommodated. I would like to advocate 
for this project's inclusion, authorization, and funding so 
that our Coast Guard men and women start their careers with the 
facilities and the resources that they need. I would 
appreciate, Commandant, if you could look into this important 
project and get back to me on its status as well.
    Finally, just to say that, again, how proud I am of both of 
you and the people that work for you. One of the harshest 
things I remember, just real briefly, that I would love to see 
change--and I know I have legislation--when, God forbid, we 
ever have a Government shutdown again, which I hope we never 
do--I would never--I don't think any of us on either side of 
the aisle want to see it, but, when the Coast Guard didn't get 
paid because they weren't part of DOD, those men and women 
literally did suffer, and, as you know, we had fundraisers, and 
we helped them in many ways, but that is no way to take care of 
them. They should just receive the income that they deserve.
    Admiral Schultz. Congressman, I appreciate that point. That 
was difficult on our folks. We continue to try to inform that, 
find some type of a, you know, parallel legislative construct 
to pay our military, maybe Pay Our Coast Guard Act. That has 
proven challenging, but we continue to try to support----
    Mr. Van Drew. All military should be made.
    Admiral Schultz. Sir, on Cape May, I absolutely share your 
concern. That is the first impression that men and women that 
join our ranks, our enlisted work force, see about the Coast 
Guard. So their position--you know, their view of our service 
is informed by that experience. So I would like to better that 
at the first opportunity we can, sir----
    Mr. Van Drew. Thank you.
    Admiral Schultz [continuing]. To ensure that vision.
    Mr. Van Drew. Thank you, Chairman.
    Mr. Correa. Thank you, Mr. Van Drew.
    Mr. Bishop, recognized for 5 minutes of questions.
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony and your answers 
to questions.
    Administrator Pekoske, the Registered Traveler Program is--
might be the perfect example of a successful public-private 
partnership helping to drive innovation, technology, and 
security to the checkpoint at zero cost to the taxpayer.
    What is TSA doing to support the Registered Traveler 
Program as it continues to expand to more users and airports?
    Mr. Pekoske. So thanks for the question. You know, we have 
worked with the registered traveler provider for many, many 
years, a very successful partnership between the two of us. I 
meet regularly with the CEO and the president of that company. 
So it has been a successful program.
    The only thing I would say is that this is a distinction 
between a Registered Traveler Program and a trusted traveler 
program. A trusted traveler program is a program where the 
Government conducts a background vetting of applicants, 
wherein, in a Registered Traveler Program, that is not the 
case. But, nonetheless, the Registered Traveler Program has 
been very valuable in verifying the identity of passengers as 
they present themselves.
    Mr. Bishop. You were answering Member Lesko's questions 
about the Credential Authentication Technology Program. As that 
rolls out, what are its implications for the continuation of 
the Registered Traveler Program?
    Mr. Pekoske. Sir, that is a great question, and we have 
been working very closely with our registered traveler provider 
to make that as seamless as possible, because neither of us 
feel that we need to revalidate the identity because the 
Registered Traveler Program does that very, very well.
    It is just making sure that the identity verification is 
transmitted to our travel document checker, and, that way, we 
can look at the risk status and make sure the passenger is in 
the right screening profile. We have got a number of examples 
of how that might work, and we continue to work closely 
together to explore those.
    Mr. Bishop. Are your efforts devoted to continuing to make 
it practicable to use the Registered Traveler Program 
notwithstanding the----
    Mr. Pekoske. Yes, sir. I think they can both exist 
together, and that is really both of our goals, is to see us 
through that point because, you know, the Registered Traveler 
Program has a very good identity verification process that is 
quick, and we would like to see that continue.
    Mr. Bishop. Thank you, sir.
    Mr. Pekoske. Thank you.
    Mr. Bishop. Commandant Schultz, I was pleased to see, after 
learning a good bit about it in a prior hearing that the 
President prioritized U.S. Arctic interests by including $555 
million for construction of a second polar security cutter. You 
made reference to that. Is 1 additional heavy icebreaker enough 
to counter Russia and China in the region?
    Admiral Schultz. Congressman, thanks for, (A), the 
Congress' support for the icebreaker program and your interests 
there.
    Absolutely not. The program of record here is the first 
polar security cutter, which we awarded a contract last April 
when I was finishing up detail design work this year, started 
cutting steel in calendar year 2021, hopefully to have that 
ship delivered 2024, possibly a little sooner with some 
incentives.
    The money in this year's budget as you noted, sir, is full 
production for the second polar security cutter. The program of 
record is up to 3, so an option for a second and third ship.
    We absolutely, sir, gotta build to that third ship. I think 
there is a conversation beyond the 3 polar security cutters. We 
are looking at requirements for what a medium breaker might 
look like.
    Both China and Russia--and we think about the National 
Defense Strategy and competing global powers, you know, they 
both made Arctic operations a priority. One is a legitimate 
Arctic nation here with a long Arctic coast and the Northern 
Sea Route. President Putin sees that as essentially a toll 
road. Twenty-two, 25 percent of his GDP is driven from Arctic 
operations today, and the ship from Shanghai that could go 
through the Suez Canal can knock off 2 weeks if they go 
across--you know, through the Bering and across Russia. So that 
is very much in the Russian calculus as they sort of re-emerge 
or try to re-emerge.
    For the Chinese, they are interested in the energy up in 
the Arctic. You know, there is a third of the untapped natural 
gas, 13 percent of petroleum products on the ocean floor; a 
trillion dollars of, you know, minerals link, or zinc, lead, 
palladium, gold. They are also interested in, you know, defense 
over the poles.
    You know, we are sighting fifth-generation fighters up 
there in my DOD counter--you know, counterparts there. China's 
interest is very important.
    So we absolutely, sir--it is a capacity conversation. The 
good news is we are acting on it with the polar security cutter 
program.
    Mr. Bishop. I recall in those earlier hearings that there 
was some suggestion of the need for more thorough development 
of the Coast Guard's long-term strategy in the region. Can you 
sort-of comment on the continuing efforts to complete that? You 
may have to some degree with your last answer.
    Admiral Schultz. Yes, sir. I rolled out an Arctic strategy 
refresh in the spring ahead of the award of the contract last 
year. There is a couple lines of effort.
    While we are waiting for this first polar security cutter 
to come to the waterfront, we need to look at communications. 
Very limited communications in the Arctic today. So we are 
looking at, you know, partnering with industry, looking at our 
defense partners--USNORTHCOM, NORAD, General O'Shaughnessy. We 
are talking about what might be practical in terms of some type 
of lower satellite, a payload on there that can enhance 
communications.
    The Healy, our medium breaker, operated last year above the 
Arctic Circle for about 3 months. About 30, 45 days of that, 
had very limited connectivity. Other than a satellite position 
report, they couldn't do ship's business. That has to improve, 
sir.
    Domain awareness. You know, it is a vast area. Even if you 
had 3 polar security cutters operating up there at the same 
time, which wouldn't be our operating profile--we still have 
the Antarctic missions. You know, there is still a huge amount 
here.
    So we have got to use technology to enhance our 
understanding of the Arctic domain, sir.
    Mr. Bishop. Thank you. Thank you, gentlemen. Thank you very 
much, Admiral Schultz.
    I yield back.
    Mr. Correa. Thank you. What I would like to do is go 
through a second round of questions if I can, and I will start 
out with Administrator Pekoske.
    Following up on a question I asked about paying full share 
of health insurance premiums for part-time TSO officers and the 
issue of the full coverage of related medical treatment and 
wage loss under the Federal Employee Compensation Act, these 
are budgetary decisions I presume you are making. You were 
paying for their full share last year, at least for health 
insurance premiums, and now you cut those back.
    You know, I can't think of anybody right now in this 
country that is more of a front line, thin blue line kind of a 
defense than your TSO officers. We talk about a border wall, 
but, if you think about where people are coming from all over 
the world, who is interacting with international travelers, it 
is your officers. They are the ones that are really on the 
front line.
    We have part-timers, full-timers, different benefits, 
different health benefits. Yet they are the ones that are 
really interacting right now with people from all over the 
world. We just approved, the administration, $8.3 billion to 
address this health crisis.
    Have you asked for any resources there to be shifted to 
your Department so that we can be better prepared to address 
this country's needs?
    Mr. Pekoske. Yes, sir. A couple of comments. First, with 
respect to the part-time work force, we have a concerted effort 
to reduce the percentage of part-time employees as compared to 
full-time employees.
    Mr. Correa. As we should, yes.
    Mr. Pekoske. Yes, as we should. So I just would, you know, 
really want us to be cognizant of that fact. We are trying to 
get to 80/20 and then eventually 90/10 and----
    Mr. Correa. So you do believe we need to professionalize 
those TSO officers and make sure they are the best of the best, 
given that not only are they now dealing with coronavirus, they 
were dealing with Zika, Ebola before, they are trying to make 
sure nothing gets through those checkpoints that can bring down 
one of our planes. So we have to have the best of the best. So 
we agree on that, full-time professional work force?
    Mr. Pekoske. Yes, sir, we do. The budget reflects 
investment in our work force, and I think what you have seen 
and your colleagues have seen is that is where my focus is, is 
on the front line of the agency, making sure that we do 
everything we can to support them as best we can. Because you 
are right, they are individuals that see on average 2.6 million 
passengers every single day in this country. So it is a 
significant responsibility, and they do, in my view, an 
excellent job.
    Mr. Correa. So would it not be a good idea then to restore 
full share of health benefits to payment of premiums of health 
benefits of part-time workers?
    Mr. Pekoske. Sir, I think it is important that we treat 
part-time employees in Government like we treat part-time 
employees in the private sector and----
    Mr. Correa. Except that these are not private-sector 
employees. These part-time workers are really doing the same 
thing as the full-time workers, which are interacting with 
passengers, making sure nothing gets on those planes that can 
bring down the plane. It doesn't matter if you are part-time or 
full-time, you have the same responsibility. Zero mistakes 
needs to be the rule.
    Mr. Pekoske. Yes, sir, yes, sir. The proposal to reduce the 
medical benefit to part-time employees was part of last year's 
budget that was passed by the Congress and----
    Mr. Correa. Again, we have an $8.3 billion augmentation 
here to fight this medical crisis. Have you asked for any of 
those resources to help you balance your books?
    Mr. Pekoske. Sir, in the $8.3 billion supplemental that was 
just passed by the Congress, DHS did not have any funding in 
that supplemental. So no----
    Mr. Correa. There weren't any requests for any of that $8.3 
billion to come to your Department?
    Mr. Pekoske. We all made requests, but those requests did 
not make it into the final supplemental.
    Mr. Correa. I would like to continue to work with you on 
this issue because, again, I really believe that this is an 
area we have got to beef up on. We have to make sure that there 
is zero tolerance when it comes to any mistakes, any oversights 
by our TSO officers. Let's work together on this. This is not a 
gotcha. This is not--we want to make sure that our public is 
confident of the job that you are doing. I really believe in my 
heart and based on the facts that coronavirus is just one of 
many others to come. So we need to make sure that your work 
force is prepared to address these health issues as well as 
terrorist issues that are coming at us.
    Mr. Pekoske. Yes, sir. If I could make one point on that?
    Mr. Correa. Please do.
    Mr. Pekoske. The key issue here, in my view, is the funding 
for that work force. As you know, we have authorities that no 
other agency has in this Government to take care of the work 
force. It is the funding that we don't have enough of, and that 
is why you see requests in the President's budget to increase 
the funding for our front-line work force. Note, please, that I 
am starting with the transportation security officers. That is 
45,000 of the 64,000 men and women in the agency. They are 
absolutely on the front line, but I fully intend to move to the 
Federal Air Marshal Service----
    Mr. Correa. See the President is budget-shifting some of 
the funding away to other priorities, like the wall, and not 
into your Department.
    Mr. Pekoske. Sir, there are always priorities that any 
President has, and those priorities are reflected in the top 
line allocation.
    Mr. Correa. I would say this is a clear and present danger 
that we are facing right now on a world-wide scale.
    Mr. Pekoske. Yes, sir. The other thing to think about, and 
it goes to the prior question about, let's say, for example, 
shut-down funding. As you know, the Transportation Security 
Administration's appropriations are offset by fee collections. 
That fee resource would be an excellent candidate to source pay 
for officers, which would not be affected by appropriations. So 
that would insulate both TSA and then, from the comments 
earlier, the Coast Guard as a military service from the anxiety 
that certainly any member of a work force will have when faced 
with Government shutdown.
    Mr. Correa. Administrator, it sounds like we have a lot of 
work to do, so let's continue to work together.
    Mr. Pekoske. Thanks.
    Mr. Correa. Thank you.
    I would like to recognize Mrs. Lesko for 5 minutes.
    Mrs. Lesko. Thank you, Mr. Chairman.
    I am just going to make a brief comment, and then I have to 
go to Judiciary Committee for bill mark-up. You know, of 
course, it is important that you get adequate funding, 
especially for our TSOs. I do believe that it is important that 
we keep them well-paid. But as I said before, we all have to 
live within budget constraints. I mean, taxpayers don't have 
like an unlimited amount of money. The amount of interest we 
are paying on our National debt, I forget the saying, but it is 
soon going to surpass, I think, all of the Department of 
Defense funding, if I remember. You know, so this is a serious 
problem, too. So we have to balance everything out just as we 
do in our own family and our own homes, and so I know it is a 
difficult task. I am glad that you are giving pay raises to the 
TSOs.
    With that, I yield back.
    Thank you.
    Mr. Correa. I recognize Ms. Barragan for 5 minutes of 
questions.
    Ms. Barragan. Since a comment was made about the deficit, 
let me say that I think the way that we spend our money in our 
budgets are reflective of our values, and I would much rather 
give a pay increase to the Coast Guard and to TSA and to those 
on the front lines of fighting terror and keeping our country 
safe than just major corporations who didn't ask for a tax cut.
    So, with that said, I had a follow-up question for you, 
Admiral. Given the increased role of the Coast Guard and their 
need for man hours to respond to the coronavirus, has that 
impacted the branch's other official missions that you may 
have?
    Admiral Schultz. Congresswoman, we are a multimission 
service by definition. So 11 statutory authorities as was 
alluded to in one of the opening statements from your 
leadership. We have the bandwidth to manage this. We have the 
folks in the port. It has been, you know, around the clock here 
for days here. I would be, you know, remiss to not call that 
out. But currently, ma'am, I think we can manage our other 
mission areas. This is in the regulatory role with the cruise 
industry. We still have our law enforcement missions, our 
rescue missions, our, you know, enhancing economic prosperity 
on America's waterways, aids navigation, that continues. We are 
an organization of almost 42,000 uniformed men and women. So 
this is front and center. It is very relevant and critically 
important to the American public. It has our top priority, and 
we are, you know, informing the decision makers in Government 
with the best military maritime expertise, but we have the 
bandwidth, ma'am, to continue our other missions.
    Ms. Barragan. Do you believe the Coast Guard has the proper 
and sufficient supplies of protective equipment for your men 
and women who are on the front lines of the coronavirus?
    Admiral Schultz. So like the TSA administrator, when this 
crisis, this COVID-19 situation started, the first thing we 
took was stock of our personal protective equipment, PPE we 
call it, for our men and women. Our men and women interface on 
the water. We would be involved in those medical evacuations 
potentially of COVID-19-infected patients. So, yes, we are 
looking at that. We are looking at our stocks. You know, there 
are finite quantities. So we are making sure we inform our 
needs and not, you know, exceeding our ask, but we are in a 
good spot now of what we need, and we are continuing to track 
the situation and ensure that, first and foremost, our front 
line operators are doing this safely and continue to do the 
work that the Nation needs them to do.
    Ms. Barragan. OK. Thank you.
    Mr. Administrator, I wanted to follow up with you on a line 
of questioning that I didn't get to finish about the changing 
of gloves and things like that. Are TSOs required to change the 
hand swabs used to detect traces of explosives between each 
time they are wiped on a passenger's hands or belongings?
    Mr. Pekoske. They are now. We made that policy change 
yesterday. In the past, they would go through a series of 
swipes because there was not a risk of cross-contamination. We 
now see that with the coronavirus, and so we have an adequate 
supply to have them change out the swabs for every time they 
use them.
    Ms. Barragan. So the policy was just implemented, did you 
say, yesterday?
    Mr. Pekoske. Yes.
    Ms. Barragan. Are TSOs and airport custodians or anyone 
else required to regularly clean frequently touched surfaces at 
checkpoints, including the bins thousands of passengers put 
their cell phones, shoes, and other belongings in?
    Mr. Pekoske. Yes, ma'am. The airports are partners with us 
in that cleaning regime. They clean the rest of the airport. I 
will give you an example. In the San Jose Airport when we had 
the 3 officers who tested positive for COVID-19 yesterday, the 
airport very quickly went through and sanitized the entire 
airport, including the TSA checkpoint.
    But the other thing that we look at carefully----
    Ms. Barragan. How regularly is that happening? Just can you 
tell me how regularly are they going to, you know, clean?
    Mr. Pekoske. Yes, ma'am. It really depends on the 
circumstance, and it depends on the airport because that is an 
airport contract. But if I could get to a little rationale here 
is, with respect to the bins, if you were to really sanitize 
the bins, you would have to sanitize them after every single 
use, and that is just not feasible in our checkpoint 
operations, nor do we think that is the primary form of 
transmission. It is basically hand-to-hand contact with a 
passenger. That is the reason for the gloves.
    So, you know, even as we look to some of these things from 
a medical perspective--and I really like to just understand the 
science and what the medical requirements are and make 
decisions based on that. So we could have a lot of activity 
that might not actually have an operational benefit to it.
    Ms. Barragan. Do the checkpoints have sanitizers for 
passengers coming through?
    Mr. Pekoske. No, ma'am. But one of the changes we are going 
to make is to allow passengers, likely beginning today or 
tomorrow, to bring a larger quantity of sanitizer through our 
checkpoint. It is going to require a little bit more screening 
on our part because we have to verify that that is, in fact, 
hand sanitizer in the bottle, but we do want to increase that 
volume to make it easier for passengers, particularly those 
that don't check bags, to bring a volume of sanitizer with them 
because, as you know, you could go to another city and find 
none available on the shelves.
    Ms. Barragan. Well, I hope that that information will be 
made available publicly so that passengers will get that before 
they get to the airport so they know they can bring it.
    Thank you. Thank you, both.
    Mr. Pekoske. Thank you.
    Ms. Barragan. I yield back.
    Mr. Correa. I recognize Mr. Bishop for 5 minutes of 
questions, sir.
    Mr. Bishop. Thank you, Mr. Chairman.
    I might pursue for a moment the point of focus by the 
Chairman, Mrs. Lesko and Ms. Barragan. I guess I would begin by 
suggesting that our problems with our budget deficit and debt 
are by no means limited to issues of preferring the interests 
of corporations over individuals. It is a really mammoth 
problem.
    One person made the point to me recently that a good way to 
think of debt that is expressed in the trillions is not as a 
trillion but how much that boils down to for every family in 
America. So a trillion dollars is $8,000 for every household in 
America, meaning that if we have got a $23.4 trillion debt 
right now, that is $187,200 for every household in America. If 
you consider that 2 of our essential programs, Medicare and 
Social Security, are anticipated to run over the next 30 years 
at $103 trillion deficit, that is something in excess of 
$800,000 for every household in America. It is a striking 
figure if you begin to realize how big our challenge is there.
    So I certainly think we do have to be mindful of budget 
efficiencies. I actually also think it makes sense to attempt 
to follow the private market in terms of determining public 
pay. So I think our TSOs need to be paid better, but in terms 
of health insurance, I would agree that it ought to follow 
practice in the private market.
    Let me ask you this, though, because I understood that 
perhaps the Chairman's questions were focused in part on the 
notion of whether our current situation with coronavirus 
changes the calculus in terms of whether there ought to be 
provision of full insurance coverage for part-time workers. By 
the way, I also think it is a good idea to follow your policy 
priority of moving toward full-time employment. So I would not 
discourage that at all. This is a question that I just don't 
know the answer to because I have more experience in State 
government and State law, but are TSOs covered within the 
coverage of workers' compensation program?
    Mr. Pekoske. Yes, sir, I believe they are. You know, we 
will do everything we can to support our TSOs, particularly 
those that come back positive with a COVID test or those that 
have had contact with someone who has, to make sure that they 
have all of the information that they need and the support from 
us because, you know, this is--and just like in my experience 
in the Coast Guard, this is very much an everybody supports 
everybody else; everybody is in it together to get the mission 
accomplished.
    I would like to make another point, though, sir, because 
you raised a really good issue. In a lot of things that we do 
in TSA with respect to our security directives and emergency 
amendments, which are directives that I can issue to address a 
security threat, in many, many cases, the funding to address 
those threats are borne by the carriers and by the airports 
because we place specific requirements on them. For example, 
when we had the travel restrictions first put in place for 
people who had been in China over the past 14 days and people 
who have been in Iran over the past 14 days, the requirement to 
do that questioning and that work was placed by me on the 
carriers by directive, but it is their cost to be able to carry 
that forward.
    I would also note, too, that we have received tremendous 
support from both airports and carriers in purchasing 
technology that we need, that they like, too, because it serves 
the interests of their passengers from a passenger experience 
perspective, literally in the millions and millions of dollars. 
So the corporate piece of that for TSA is quite significant and 
also applies on the surface transportation security side.
    Mr. Bishop. All of that is very interesting, and let me 
just follow this point up a little bit further. If a TSO were 
exposed to and contracted coronavirus in the scope and course 
of employment and, therefore, had to be quarantined for a 
period of time, wouldn't there be--wholly apart from coverage 
for health insurance, wouldn't that person be covered under a 
workers' compensation program so that any health care cost, any 
temporary disability from work resulting from that would be 
covered by that workers' compensation?
    Mr. Pekoske. I think so, sir, but I am not sure and will 
have to get back to you for the record. But the other point I 
would make is that we are not requiring people to take sick 
leave. So, in other words, they don't need to go into their 
sick leave balance or their annual leave balance for these 
circumstances.
    Additionally, if we have officers that, for example, are 
caring for an elder parent, they just need to notify us that, 
``Hey, I have an elder parent living in my household; I need to 
make sure that I don't bring any virus into the family,'' and 
we will provide accommodations for that as well.
    Mr. Bishop. Thank you, sir.
    Thank you, Mr. Chairman. I yield back.
    Mr. Correa. I think you want to take a moment to go through 
a third set of questions if I may. I want to make sure that we 
focus in on these issues of professional work force. I also 
dealt in State government. I also worked in the private sector 
for a long, long time. What you see today is an issue of, in 
the private sector, if you are sick, if you have got the flu, 
you have got a choice: Stay home. You don't have any coverage 
in terms of paid medical leave. You have got a choice: You have 
got to pay the mortgage, or you come to work sick. Those are 
some of the issues that we don't want our TSA officers to have 
to face.
    The question of part-time or full-time, again, at the State 
level, we used to pay our police officers or firefighters 
really well because we considered them front line, the thin 
blue line that protected us from all of those bad things. If an 
officer came down or a firefighter came down with cancer or 
something like that, some States have what we call presumptive 
rules, which means you presume it is under you got cancer, you 
came down with a certain illness because of the nature of your 
work. What we are trying to do with TSO officers, at least from 
my perspective, is give them the same kind of benefit.
    My colleagues are absolutely right: The deficit is out of 
control. It will be--interest on the debt is probably going to 
be our third-largest expense on an annual basis in this 
country, and we have got to make some very important choices.
    At this point, I would argue fighting coronavirus, we can 
look at it as a budgetary issue, but it is having major 
repercussions on our economy. People are dying. We don't know 
what the extent of this issue will be for another few weeks, 
and looking at your work force, a very strong argument can be 
made that the best investment is not to be cheap, be pennywise 
and dollar-foolish, but to make sure that you are doing your 
job the best that you can do, OK. Again, Zika, Ebola; now it is 
corona. Next week, what is it going to be? What we want to do 
is create a system on-going that really is there to address 
these issues going forward. A few weeks ago, we were looking at 
$2 billion. We just passed an $8 billion appropriation. Just 
within weeks, we have gone from $2 billion to $8 billion. We 
want to make sure we make the right investments today. Taking 
care of those part-time workers in terms of health care, making 
sure they have paid time off, medical leave, I think are good 
investments. Right now, in my office, we are making those 
decisions. Do we come in and work, or do we work from home? 
This coronavirus is really shaking up our society. Every day we 
are trying to figure out, where do we go next? So, yes, we are 
in a deficit situation, but if you start cutting back right now 
on common-sense investments, heaven knows where we are going to 
be in 2 or 3 weeks. We still don't know how far the extent of 
this infection is.
    You, my friend, TSA, the airports, are our thin blue line. 
You are taking care of us as a society. So I want to work with 
you. I am trying to ask you, how much have you asked of these 
$8 billion because it is not being humble here. It is being 
aggressive enough to make sure that we are taking care of your 
workers, who are taking care of our passengers, who are 
screening individuals coming into our country. That I believe 
is a front line of this battle right now with corona, not 
only--I mean, I think it has gotten into our country. What I 
hear now, at least in the last 24 hours, it is not about 
containment. It is now about managing this issue that is all 
around us. Let's work together to make sure we are doing the 
right things at the right time and not have to look back in 3 
or 4 weeks and say what we should have, could have, would have. 
Let's be wise in our moves.
    Mr. Bishop, 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Let me end on a note of agreement in the sense that I 
completely agree that, if there are any needs in the Department 
of Homeland Security that are augmented, increased by virtue of 
the coronavirus threat, then we ought to fund them, and they 
ought to be made known, and don't hesitate to seek that money, 
I agree with the Chairman about that. But I think it would be--
I would only--I would state that agreement and I would clarify 
it, or perhaps a point of difference, which is don't use the 
crisis as an opportunity to achieve other policy objectives 
that aren't generated or exacerbated by the crisis. In fact, 
that takes some discipline.
    I have had occasion to say in a subcommittee hearing in 
small business the other day that was interesting. I believe 
that we have dual responsibilities as policy makers. We have 
the responsibility not to underreact, and we also have the 
responsibility not to overreact. Both decisions could have 
negative implications for the country. They certainly have 
negative implications for budgetary concerns. Frankly, 
whichever way you turn on that, you can cost people's very 
lives, whether you underreact or overreact.
    But I certainly do support the idea that our TSOs are 
front-line employees, much like police officers and 
firefighters, but it is not the case that the only folks who 
are putting themselves on the line to respond to this crisis 
are in the public sector. Nurses, physicians, technologists, 
folks in all manners of employment are facing difficult times 
because of this issue, and we need to be mindful of them all.
    Thanks for the opportunity, Mr. Chairman, to say that.
    Mr. Correa. Thank you, Mr. Bishop.
    I want to thank the witnesses for their time and testimony 
today and for addressing our questions.
    The Members of the committee may have additional questions 
for the witnesses, and I ask that you respond expeditiously to 
those questions and in writing.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands in 
adjournment. Thank you very much.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Chairman Bennie G. Thompson for David P. Pekoske
    Question 1a. The Department of Homeland Security has finally pushed 
out the deadline to October 1, 2021. Both DHS and TSA have heard from 
Members of Congress and the growing concern of the deadline in the face 
of very slow issuance by States. Only about 35 percent of travelers 
have compliant IDs, and since DHS began its public awareness campaign 
that number has only increased less than 10 percent increase in about 6 
months. That's not fast enough to get us where we need to be.
    Any deadline if State issuance numbers of REAL ID identification 
documents do not increase significantly will be problematic to the 
aviation industry including TSA; what does that mean for airport 
checkpoints?
    Question 1b. Will a backlog of passengers create new security 
vulnerabilities?
    Question 1c. What contingency plans are being developed by TSA to 
prepare for REAL ID implementation?
    Question 1d. Although the deadline has been extended, how will TSA 
and Department of Homeland Security use metrics and data, such as REAL 
ID issuance rates in States, to weigh implementation, develop an 
achievable time line, evaluate the impact to the economy in addition to 
that on airport security operations?
    Answer. The Transportation Security Administration (TSA) is working 
on operational plans to help mitigate the impact REAL ID enforcement at 
the screening checkpoint, beginning October 1, 2021. TSA is aware that 
large lines of passengers either at the screening checkpoint or on the 
public area side create a security vulnerability at the airport, and 
will be collaborating with airports to develop contingency plans to 
handle individuals who arrive without an acceptable form of ID. The 
contingency plans will also provide our Federal Security Directors with 
options for managing the risk presented by large crowds in public 
spaces and checkpoint queues due to potentially low REAL ID adoption 
rates.
    As it relates to REAL ID issuance metrics, since last summer, the 
U.S. Department of Homeland Security (DHS) has requested monthly data 
from the States in preparation for full enforcement of the REAL ID Act 
requirements. In March, the Department reported that over 103 million 
REAL IDs had been issued, which accounts for approximately 37 percent 
of all licenses issued. DHS appreciates the continued cooperation and 
proactive efforts of States to increase their citizens' adoption of 
REAL ID.
    The agency believes the best way to reduce impact to the traveling 
public is to inform passengers what IDs they need if they want to fly. 
TSA will continue to educate passengers about the other forms of 
acceptable ID, such U.S. passports, which individuals may use to verify 
their ID if they do not have a REAL ID-compliant ID. TSA posts an 
updated list on its website, available at https://www.tsa.gov/travel/
security-screening/identification. For reference, DHS assesses that in 
addition to the 103 million REAL IDs in circulation, there are also:
  <bullet> 146 million U.S. passports or passport cards;
  <bullet> 10 million U.S. military IDs (active duty, retired military 
        and their dependents, and DOD civilians);
  <bullet> 6.3 million Veterans Health Insurance Cards;
  <bullet> 7.2 million Global Entry cards;
  <bullet> 2 million NEXUS cards; and,
  <bullet> 4 million enhanced driver's licenses.
    These documents, and over a dozen others listed on TSA's website, 
can all be used to board domestic aircraft, and may alleviate some of 
the impact faced by States and DHS at airports. However, DHS is unable 
to ascertain the overlap of individuals who have a REAL ID and one of 
the other acceptable ID referenced above. While DHS and TSA are 
continuing to message the importance of obtaining a REAL ID, our goal 
has never been to obtain 100 percent compliance. As described above, 
there are millions of other documents issued which can be used for 
identification.
    Recently, many State Department of Motor Vehicles (DMV) have either 
closed or have greatly reduced their hours due to COVID-19, which 
greatly impacts increased adoption as well as the additional data we 
can receive in the near future. Further, the significant reduction of 
air travel caused by COVID-19 constrains TSA's ability to educate 
passengers, establish time lines, and assess economic and operational 
impact.
    Question 2a. TSA's relationship with its stakeholders has generally 
been collaborative and complementary. Is the agency and its 
stakeholders doing all that can be done to ensure that the REAL ID 
deadline does not cause a meltdown of the aviation system?
    Question 2b. If so, why are current efforts not making much of a 
difference?
    Question 2c. The effects of REAL ID implementation will not just be 
on the traveling public and airlines but will affect airports and the 
tourism industry at large. How seriously are you taking the effects 
that implementation, before the public is ready, will have on the 
industry, the economy, and jobs--especially as the industry and the 
economy may still be recovering from the novel coronavirus?
    Answer. The most effective method to address the impact of REAL ID 
on the traveling public, flight operations, airlines, and industry is 
to increase the adoption rate of REAL ID before the full enforcement 
date, October 1, 2021. DHS and TSA have focused on raising awareness 
about the upcoming deadline through educational and outreach efforts to 
all stakeholders, including the aviation industry, travel associations, 
State and local governments, and the traveling public.
    The agency's strategy is to leverage industry and stakeholder 
networks to educate the traveling public about the upcoming changes to 
ID requirements through a comprehensive communications campaign, media, 
and marketing toolkit. In April 2019, DHS and TSA launched a REAL ID 
public awareness campaign regarding the then October 1, 2020 deadline. 
In addition, Transportation Security Officers started providing 
advisements of the REAL ID requirement to passengers who presented a 
non-compliant driver's license at the security checkpoint in August 
2019. TSA has steadily increased its engagement with its stakeholders, 
and has held meetings and discussions with airline security officials 
to review their individual REAL ID marketing plans. TSA held a joint 
press conference with industry in October 2019 to remind the traveling 
public of the then 1-year countdown to enforcement.
    As a result of steady engagement with stakeholders, prior to the 
outbreak of COVID-19, several major airlines voluntarily started 
providing notices to their customers of the REAL ID requirements when 
they made a reservation. In January 2020, TSA Administrator Pekoske 
sent a letter to the major airlines that I was considering implementing 
security program changes to ensure the highest level of compliance by 
the enforcement date. The proposed security program changes are 
temporarily on hold due to the impact of COVID-19 on the airline 
industry.
    Other efforts by the Department to increase compliance with REAL ID 
requirements included soliciting ideas on ways to modernize and 
streamline the process for the States to issue, and the public to 
obtain, REAL ID-compliant IDs. To that end, last fall, DHS published a 
public Request for Information (RFI) for proposals to streamline REAL 
ID issuance processing in the Federal Register. Over 100 proposals from 
69 total submissions were received from 24 States, 17 private-sector 
companies, and 3 associations (American Association of Motor Vehicle 
Administrators, National Association for Public Health Statistics and 
Information Systems, and United States Travel Association). Among the 
submissions are proposals to streamline the manner in which applicants 
may submit documentation and information necessary to obtain a REAL ID 
license, including through the use of electronic transmission methods. 
Some of proposals may also achieve the goals of: (1) Following the 
public health guidance of social distancing by permitting Americans to 
obtain REAL ID cards from home, and (2) increasing the overall speed 
and number of REAL ID cards issued prior to the full enforcement 
deadline of October 1, 2021. At the request of Congressional 
committees, DHS provided technical drafting assistance outlining these 
suggested modernizations which would help increase REAL ID issuance 
speed and capacity for the States.
    Question 3a. As concerns surrounding the effects of REAL ID 
implementation grow, some have proposed a number of solutions to 
address workarounds for passengers without REAL IDs at the checkpoint.
    Would allowing trusted traveler members to travel without a 
compliant ID have a substantive effect on the total volume of 
passengers that do not have compliant IDs--or do those passengers 
generally have a passport or other compliant ID already?
    Question 3b. Does TSA have the resources that would be needed to 
provide pat downs or other secondary screening to passengers without a 
compliant ID and still let them through? Do you see that as a fair 
solution for either passengers or the front-line workforce?
    Question 3c. Does TSA have the necessary resources to query 
databases to conduct identification verification for all those without 
compliant IDs at the checkpoint? Is there enough time between now and 
the deadline to upgrade the capabilities necessary to make this an 
alternative?
    Answer. TSA is working on operational plans to help mitigate the 
impact REAL ID enforcement at the screening checkpoint, beginning 
October 1, 2021. TSA is aware that large lines of passengers either at 
the screening checkpoint or on the public area side create a security 
vulnerability at the airport, and will be collaborating with airports 
to develop contingency plans to handle individuals who arrive without 
an acceptable form of ID. The contingency plans will also provide our 
Federal Security Directors with options for managing the risk presented 
by large crowds in public spaces and checkpoint queues due to 
potentially low REAL ID adoption rates.
    The agency believes that the best way to reduce impact to the 
traveling public is to inform passengers what IDs they need if they 
want to fly. TSA will continue to educate passengers about the other 
forms of acceptable ID, such U.S. passports, that individuals may use 
to verify their ID if they do not have a REAL ID-compliant ID. TSA 
posts an updated list on its website, available at https://www.tsa.gov/
travel/security-screening/identification.
    As it relates to REAL ID issuance metrics, since last summer, DHS 
has requested monthly data from the States in preparation for full 
enforcement of the REAL ID Act requirements. In early March, the 
Department reported that over 103 million REAL IDs had been issued, 
which accounts for approximately 37 percent of all licenses issued. DHS 
appreciates the continued cooperation and proactive efforts of States 
to increase their citizens' adoption of REAL ID. It is important to 
note that while 37 percent of all licenses issued are REAL ID-
compliant, there are also hundreds of millions of Americans who will be 
able to travel on other REAL ID-compliant documents. For example, DHS 
assesses that in addition to 103 million REAL IDs in circulation, there 
are also 146 million U.S. passports or passport cards, 10 million U.S. 
military IDs, 7.2 million Global Entry cards, 2 million NEXUS IDs, 6.3 
Veteran's Health Insurance Cards, 4 million enhanced drivers licenses. 
These documents can all be used to board domestic aircraft, and may 
alleviate some of the impact faced by States and DHS at airports.
    Recently, many State DMVs have either closed or have greatly 
reduced their hours due to COVID-19, which greatly impacts increased 
adoption as well as the additional data we can receive in the near 
future. Further, the significant reduction of air travel caused by 
COVID-19 constrains TSA's ability to educate passengers, establish time 
lines, and assess economic and operational impact.
    Question 4a. There have been calls to modernize the identification 
requirements to include mobile driver's licenses. I understand TSA is 
exploring the use and integration of mobile licenses within the 
security checkpoint.
    Is a mobile driver's license an alternative for physical driver's 
license?
    Question 4b. Are mobile driver's licenses currently in use at TSA? 
What are the use cases that industry is envisioning for mobile driver's 
licenses? Does TSA share industry's vision?
    Question 4c. Are mobile driver's licenses ready for wide-spread 
use? Do they have the appropriate standards for privacy and civil 
liberties?
    Answer. A mobile driver's license (mDL) is a digital representation 
of the information contained on a physical driver's license, and is 
typically accessed using a smartphone. An mDL is considered a 
complement, not an alternative, to a physical driver's license, because 
currently States issue mDLs to individuals only after they have been 
issued physical driver's licenses. Industry use cases for mDLs envision 
a broad range of transactions that require secure and trusted forms of 
identification. According to industry projections, up to 50 percent of 
drivers in the United States will adopt mDLs within 10 years.
                         surface transportation
    Question 5a. In the TSA Modernization Act and a number of hearings, 
Congress has been clear on the importance of surface transportation and 
its parity with aviation. As administrator, you have realigned the 
organizational structure of TSA including moving Surface Operations 
under the Security Operations chain of command.
    Can you confirm that you have successfully staffed Surface 
Operations to carry out their responsibilities?
    Question 5b. Have you reevaluated staffing models to ensure Surface 
Operations has the appropriate resources?
    Answer. Yes, TSA Surface Operations is operational as part of the 
Security Operations organizational structure. Specifically, this 
includes the staffing of 5 Regional Security Directors (RSDs) who have 
operational responsibility for the surface modes in their respective 
geographic areas. Surface Transportation Security Inspector annual work 
plans, which are published each fiscal year and administered by Surface 
Operations, are monitored and overseen by RSDs. RSDs bring vast 
executive leadership and transportation security experience to Surface 
Operations, which is applied to leverage Federal, State, and local 
partnerships across the entire surface transportation landscape, 
including Freight Rail, Highway Motor Carrier, Maritime, Mass Transit 
and Passenger Rail, Pipeline and the critical infrastructure that 
supports these networks.
    In addition, Surface Operations is finalizing a suite of plans, 
such as: A high-level strategic roadmap, Regional Security Plans, and 
local surface security plans in and around the Nation's high-threat 
urban areas. Key to these plans are the risk-reducing initiatives, 
partnership building engagement approaches, and information and 
intelligence-sharing scenarios designed to strengthen the security 
posture of the operators and critical infrastructure in each region. 
While risk-reducing security initiatives are currently under way, the 
complete suite of plans will be completed this fiscal year. With the 
development of these plans, TSA will continue to evaluate staffing and 
resource requirements for each region.
    Question 6. One of the challenges for surface transportation 
security is the tendency for TSA to prioritize aviation security, 
Surface Transportation Security Inspectors (TSI) have traditionally 
reported to Federal Security Directors whose focus is on aviation 
security. When will TSIs begin to report directly to Surface 
Operations?
    Answer. Surface Transportation Security Inspectors (TSI) report to 
and receive their operational direction from Surface Operations 
headquarters through RSDs who have operational responsibility for the 
surface modes in their respective geographic areas. Surface TSI annual 
work plans and goals are monitored and overseen by RSDs, and together 
RSDs and Surface TSIs review evolving security concerns and provide no-
cost TSA options to assist stakeholders in prevention efforts, 
including for example, facilitating security exercises, conducting 
security assessments, and providing security awareness training for 
front-line employees. In addition, Surface Operations is finalizing a 
suite of plans, such as: A high-level strategic roadmap, Regional 
Security Plans, and local surface security plans in and around the 
Nation's high-threat urban areas. Key to these plans are the risk-
reducing initiatives, partnership building engagement approaches, and 
information and intelligence sharing scenarios designed to strengthen 
the security posture of the operators and critical infrastructure in 
each region. While risk-reducing security initiatives are currently 
under way, the complete suite of plans will be completed this fiscal 
year.
     Questions From Ranking Member Mike Rogers for David P. Pekoske
    Question 1a. The budget request includes a $76 million reduction in 
funding for technology procurement but outlines additional resources 
for CT coming from the Aviation Security Capital Fund.
    Credential Authentication Technology (CAT) will have real-time 
connectivity to Secure Flight, which also includes the CDC's Do Not 
Board List. Given current concerns between air carriers and the CDC 
over passenger data related to the Coronavirus, how can CAT help the 
U.S. Government's response? Once TSA acquires its planned 493 CAT 
machines, how many checkpoints will include CAT?
    Question 1b. Given these cuts, how is TSA going to move forward 
with fully deploying the 2,000+ CT machines that we need? How will new 
machines be integrated with Automated Screening Lanes to address 
throughput challenges? How many CTs does TSA anticipate funding through 
the Aviation Security Capital Fund?
    Answer. At this time, no course of action on how Credential 
Authentication Technology (CAT) will be able to help the U.S. 
Government and the Centers for Disease Control and Prevention (CDC) 
related to passengers and COVID-19 concerns has been decided, although 
possibilities and associated concerns are being discussed. Secure 
Flight (SF) currently receives data from CDC's Do Not Board (DNB) list 
and does provide the overall do not board status via Security 
Technology Integrated Program (STIP) to CAT but not differentiated as 
``CDC'' as opposed to other travelers who are not authorized to enter 
the sterile area. This differentiation to designate CDC DNB could be 
provided from SF via STIP to CAT. For CDC DNB individuals, individuals 
would be prevented from obtaining a boarding pass from the airline, but 
should the individual try to forego check-in and proceed directly to 
the checkpoint, or if the passenger is added to the DNB List after 
obtaining a boarding pass, SF would perform a real-time update to STIP 
which would then pass the information to CAT, permitting identification 
of the traveler at the time they attempt to enter the sterile area, 
adding an extra layer of mitigation.
    Additionally, as a way to aid the Government's response to the 
coronavirus, TSA is exploring options to implement a ``touchless'' CAT 
capability, which would allow passengers to scan their own 
identification credential and eliminate the need for a Transportation 
Security Officer (known as the Travel Document Checker (TDC)) to touch 
it. This is accomplished by reconfiguring the CAT platform to turn the 
document readers 180 degrees toward the passenger. The TDC must still 
read the CAT on-screen results and direct the passenger accordingly, 
but the potential for physical contact between TDC and passenger via 
the credential is greatly reduced. TSA is also exploring the 
possibility for automated validation that the photo on the credential 
matches the passenger presenting it.
    Currently, 552 CAT units are deployed at 48 airports and cover an 
average of 2 checkpoints per airport. Once the next CAT procurement 
round is deployed, 1,053 CAT units will be deployed at 164 airports and 
will cover an average of 2 checkpoints per airport. For the 268 
remaining airports, and any checkpoint lanes without CAT, TSA plans to 
continue using legacy equipment and procedures.
    TSA currently has 98 initial configuration CT units deployed, with 
a total of 300 planned by the end of calendar year 2020, subject to 
COVID-19 impacts to the deployment schedule. To ensure airport lanes of 
all sizes can receive Checkpoint Property Screening System (CPSS) CT 
capabilities in a timely manner, TSA is prepared to test 3 
configurations (full-size, mid-size, and base) starting in fiscal year 
2020. TSA will continue to refine its strategy for CT procurement and 
deployment based upon testing results that demonstrate that the systems 
meet TSA threat detection and other requirements
    Question 2. Recently, the House passed H.R. 1140, which would move 
TSA employees under Title 5. I expressed serious concerns around how 
H.R. 1140 might impact security and TSA's flexibilities under ATSA. The 
President's budget includes funding for TSA pay raises, bonuses, as 
well as retention pay at airports where it is difficult to hire 
screeners.
    Do you believe the Senate should take up this legislation?
    Answer. No, the Senate should not take up H.R. 1140. The March 2, 
2020 Statement of Administration Policy (SAP) expresses the 
administration's strong opposition to H.R. 1140. The Aviation and 
Transportation Security Act (ATSA) (Pub. L. No. 107-71 (2001)), which 
created TSA, provides the TSA administrator with broad flexibility to 
manage the workforce to best accomplish the agency's security-based 
mission and respond to emerging threats and National emergencies. 
Congress recognized that ``in order to ensure that Federal screeners 
are able to provide the best security possible, [TSA's Administrator] 
must be given wide latitude to determine the terms of employment of 
screeners.'' 107 H. Rpt. 296 (November 16, 2001). Through enactment of 
the ATSA, the President and Congress determined that flexibility not 
provided by Title 5 is needed to manage the TSA workforce in order to 
effectively carry out its security-based mission and respond to 
emerging threats and National emergencies. A move to Title 5 would 
limit those flexibilities and negatively impact TSA's ability to 
accomplish its mission.
    Moving Transportation Security Officers (TSOs) under Title 5 could 
put security operations at risk by preventing TSA from effectively and 
quickly implementing security measures to respond to ever-changing and 
emergent threats. Although Title 5, Chapter 71, Labor-Management 
Relations does not apply to the TSA screening workforce, the TSA 
administrator established a labor framework that allows TSOs to be 
represented by a union for the purposes of engaging in collective 
bargaining at the National level on defined, non-security employment 
issues. This framework preserves the flexibility required to meet TSA's 
critical security mission.
    Another result of placing TSA employees under Title 5 would be to 
make them subject to the General Schedule (GS) pay schedule. In 2018, 
TSA's administrator convened a Blue Ribbon Panel of public and private-
sector human capital experts to conduct an independent review of the 
agency's human capital policy, operations, and services to identify 
problems and recommend solutions. The Panel specifically recommended 
against TSA moving to the GS pay schedule. It recommended that the 
better course of action would be ``to use existing ATSA flexibility to 
improve the TSA pay system so that it operates at a level superior to 
the GS system.''
    Additionally, as stated in the SAP on H.R. 1140, the goal of 
providing TSA employees with competitive compensation and benefits 
``should be accomplished . . . through the budget, rather than through 
a statutory reclassification of TSA's workforce.'' The fiscal year 2021 
budget requests funding to implement 2 workforce initiatives that 
represent a significant long-term commitment to the screening workforce 
and are permissible because of ATSA's flexibilities. First, the fiscal 
year 2021 budget seeks $11.3 million for the second phase of TSO Career 
Progression, to enable TSA to provide pay increases to TSOs who 
demonstrate higher skill levels in checkpoint operations. Additionally, 
the fiscal year 2021 budget includes a request for $23.6 million for 
Service Pay to fund predictable, annual pay increases for TSOs who 
demonstrate service experience and acquire new skills. Given the 
evolving nature of threats to transportation security, TSOs must 
continually master new technologies and learn new skills. The Service 
Pay initiative builds upon the TSO Career Progression initiative and 
compensates TSOs for the skills acquisition and professional growth 
built in to the requirements of the TSA position. Neither program would 
be options if H.R. 1140 were enacted.
    In addition to the pay and administrative burdens, transitioning 
the TSA workforce to Title 5 would significantly increase on-going 
operational costs and be logistically challenging. The Congressional 
Budget Office (CBO) determined, just days before the House voted on 
H.R. 1140, after the bill had advanced through the committee process, 
that the cost associated with the bill would be $1.8 billion over 5 
years. In addition to the dramatic cost increases to transition to 
Title 5, H.R. 1140 requires TSA to transition to Title 5 no later than 
6 months after enactment, a time frame likely not possible considering 
that all TSA positions would require a classification review consistent 
with OPM Classification Standards in order to be converted. A hurried 
transition could present challenges meeting deadlines, incomplete or 
inaccurate policy guidance, as well as adversely affect the TSA 
workforce.
    Question 3. Since TSA Travel Document Checkers will be responsible 
for denying travelers who do not present REAL ID-compliant licenses/IDs 
access to the checkpoint, has the agency evaluated if any additional 
staff will be necessary to perform the function? How does TSA plan to 
handle significant volumes of confused or angry travelers?
    Answer. TSA is assessing if additional staff will be needed when 
REAL ID card-based enforcement begins at the screening checkpoint on 
October 1, 2021. TSA will work collaboratively with airports to develop 
contingency plans to handle individuals without acceptable forms of ID. 
The contingency plans will also provide our Federal Security Directors 
with options for managing the risk presented by large crowds in public 
spaces and checkpoint queues due to potentially low REAL ID adoption 
rates.
    The agency believes the best way to reduce impact to the traveling 
public and to prevent large lines at the airport is to inform 
passengers what IDs they need if they want to fly before they arrive at 
the airport. TSA will continue to educate passengers about the other 
forms of acceptable ID, such U.S passports, that individuals may use to 
verify their ID if they do not have a REAL ID-compliant ID. TSA posts 
an updated list on its website, available at https://www.tsa.gov/
travel/security-screening/identification.
    Further, DHS and TSA are working to leverage industry and 
stakeholder networks to educate the traveling public about the upcoming 
changes to ID requirements through a comprehensive communications 
campaign, media, and marketing tool kit. In April 2019, DHS and TSA 
launched a REAL ID public awareness campaign regarding the then October 
1, 2020 deadline. In addition, Transportation Security Officers started 
providing advisements of the REAL ID requirement to passengers who 
presented a non-compliant driver's license at the security checkpoint 
in August 2019. TSA has steadily increased its engagement with its 
stakeholders, and has held meetings and discussions with airline 
security officials to review their individual REAL ID marketing plans.
    Question 4. Does TSA intend to ask Congress for additional funding 
to acquire CT machines with Automated Screening Lanes in order to 
mitigate threats to aviation?
    Answer. TSA will continue to refine its strategy for CT procurement 
and deployment based upon system qualification and when industry 
presents systems that demonstrate they meet TSA requirements.
    Question 5a. Last year the TSA demonstrated ``detection at range'' 
technology at DFW Airport for employee screening, how did that trial 
go? What were the results?
    Question 5b. Will this information be incorporated into the 
forthcoming TSA Insider Threat Strategy?
    Question 5c. Is anything keeping airports from buying this 
equipment and deploying? If not, how is TSA encouraging airports to 
employ next generation, employee screening equipment?
    Answer. TSA entered into a partnership with Dallas/Fort Worth 
International (DFW) Airport Authority to demonstrate the Thruvision 
People Screening Camera, a novel on-person screening solution that does 
not emit any energy and is able to screen individuals from up to 25 
feet away. The demonstration began on November 1, 2019 and ended on 
January 31, 2020; data collection occurred from January 6-11, 2020.
    TSA's main objective was to partner with DFW airport authority to 
co-demonstrate Thruvision to identify a potentially viable solution 
that could be used for employee screening and insider threat 
mitigation. TSA also sought to assess the unique capabilities that this 
technology provides, such as real-time alarm resolution and screening-
at-speed. The demonstration produced useful lessons learned for both 
TSA and DFW. These included 8 recommendations to increase efficiency 
and effectiveness associated with the operation of the system by DFW 
Security Officers (not Transportation Security Officers). 
Recommendations focused on training, procedures compliance, and alarm 
resolution practices. TSA also completed a human factors assessment in 
which the users/operators of the demonstrated technology (DFW Security 
Officers) noted trust in the system, its ability to identify anomalies 
and resolve them in real time, and significant improvement in the 
employee screening experience.
    The Insider Threat Roadmap provides a strategic plan to guide TSA 
and the transportation community in mitigating insider risk, building 
on the expertise, leadership, and relationships TSA has developed to 
streamline processes, identify requirements and capabilities, and 
leverage partnerships to proactively mitigate risks of the insider 
threat. It is a strategic priority to disseminate and promote adoption 
of insider threat best practices and industry standards with key 
stakeholders, for which this technology has potential application.
    TSA does not have policies that either promote or inhibit the 
purchase of technology for employee screening. Only equipment that is 
listed on the TSA Acceptable Capability List (ACL) can be bought and 
deployed by airports to screen passengers and sterile area tenants 
(i.e. a specific airport employee category) for the purposes of 
allowing them into the sterile area. The ACL serves as the official 
list of capability currently able to be procured by airports and 
donated to TSA under the Capability Acceptance Process. Capabilities 
included on the ACL can be operated in a screening environment as TSA 
has performed applicable testing, determined that the capability meets 
requirements, and received approval to deploy the technology as 
required by DHS policy.
    Question 6. I understand that detection at range technology could 
greatly reduce pat-downs and already received an initial positive 
privacy assessment (PIA). Why isn't this technology being deployed at 
the checkpoint to improve detection and privacy?
    Answer. TSA recently renewed its Privacy Threshold Analysis for 
``Stand-off Detection'' and is in the process of updating its privacy 
impact assessment. While ``Detection at Range'' technology is promising 
and may reduce the overall need for pat-down resolution, current 
statutes and regulations preclude use of the technology in current form 
from being used for screening the traveling public. ``Detection at 
Range'' or ``Standoff Detection'' technology to be used for screening 
purposes currently falls under the definition of advanced imaging 
technology (AIT) under 49 U.S.C. 44901(I)(1)(A) and, therefore, must 
meet the requirements for use of AIT to screen passengers, including 
the requirement that any image created by the technology must produce a 
``generic image of the individual being screened that is the same as 
the images produced for all other screened individuals'' (i.e., an 
avatar). The statutory definitions and requirements for use were 
codified in TSA's regulations at 49 CFR Sec. 1540.107(d). The 
technology being referenced does not employ an avatar. Noting such, TSA 
is exploring the use of ``Detection at Range'' technology to screen 
aviation workers for insider threat once it is formally qualified, has 
demonstrated this type of technology in mass transit test beds, and 
will consider lessons learned from those efforts for aviation security 
applications. Should legal constraints change, TSA will look to expand 
the use of ``Detection at Range'' technology to the checkpoint.
    Question 7a. ``Detection at Range'' technology which uses the 
body's heat signature, sounds entirely different than the ``stand-in'' 
AIT machines now in airports which map the body using radiation. Why is 
TSA making this technology conform to AIT standards? Shouldn't TSA set 
up new standards and requirements?
    Question 7b. Why is TSA treating them as the same?
    Answer. Under current law, ``Detection at Range'' technology is 
subject to the standards and requirements of the current AIT program. 
Should the law change, TSA will work to create a parallel program to 
AIT that focuses on ``Detection at Range'' solutions.
    While ``Detection at Range'' technology is promising and may reduce 
the overall need for pat-down resolution, current statutes and 
regulations preclude use of the technology in current form from being 
used for screening the traveling public. ``Detection at Range'' or 
``Standoff Detection'' technology to be used for screening purposes 
currently falls under the definition of AIT under 49 U.S.C. 
44901(I)(1)(A) and, therefore, must meet the requirements for use of 
AIT to screen passengers, including the requirement that any image 
created by the technology must produce a ``generic image of the 
individual being screened that is the same as the images produced for 
all other screened individuals'' (i.e., an avatar). The statutory 
definitions and requirements for use were codified in TSA's regulations 
at 49 CFR  1540.107(d). The ``Detection at Range'' technology does not 
employ an avatar. In addition, equipment used for screening passengers 
must be certified and qualified to TSA standards by an independent 
third party in order to be used for screening the traveling public. 
This process ensures that all technology used by TSA is safe, 
efficient, noninvasive, detects threats at a high level, and meets 
specified operational requirements. TSA is also exploring the use of 
``Detection at Range'' technology to screen aviation workers for 
insider threat once it is formally qualified, has demonstrated this 
type of technology in mass transit test beds, and will consider lessons 
learned from those efforts for aviation security applications. Should 
legal constraints change, TSA will look to expand the use of 
``Detection at Range'' technology to the checkpoint.
    Question 8. What is the status of the Future Lane Experience (FLEx) 
Program and deployment of next generation, screen at speed technology? 
Why haven't we been able to deploy stand-off screening in at least a 
demonstration mode?
    Answer. The Future Lane Experience (FLEx) project was established 
in response to the TSA Modernization Act (Pub. L. 115-254, October 5, 
2018) section 1938, which mandated a Risk Modified Screening Pilot. 
Those pilots are complete and helped inform TSA's ability to transition 
all of its TSA PreCheck lanes to only service individuals with known 
traveler numbers in accordance with the TSA Modernization Act. TSA 
completed this transition on March 27, 2020 and provided notice to 
Congress on April 6, 2020.
    In fall 2018 the Innovation Task Force (ITF) posted a problem 
statement and identified a variety of screening-at-speed solutions that 
were selected for demonstration planning as part of the regular 
solution demonstration life cycle. As part of the closeout of the 
demonstrations, ITF plans to share data gathered to inform requirements 
development and capability roadmaps. TSA is currently exploring the use 
of ``Detection at Range'' technology to screen aviation workers for 
insider threats and conducted a pilot at DFW that concluded in January 
2020. TSA also sought to demonstrate the unique capabilities that this 
technology provides, such as real-time alarm resolution and screening-
at-speed. From both of these perspectives, the demonstration was 
successful and operator feedback was extremely positive. The combined 
efforts of the FLEx initiative and ITF further TSA's objectives for 
enhanced passenger screening experience through introduction of new 
procedural and technological dynamic screening capabilities to achieve 
a modern, adaptable checkpoint.
    Question 9. Based on the recent GAO reports (GAO-20-56), there is 
no requirement to ensure that screening technologies continue to meet 
detection requirements after deployment and it was shown that some 
systems, while undergoing daily calibrations and maintenance, failed to 
meet detection certification standards when tested at the 
Transportation Security Lab (TSL). What is the status of the TSA 
strategy for monitoring performance of screening technologies in live 
operation at our Nation's airports?
    Answer. TSA's strategy for monitoring performance of screening 
technologies in live operation at our Nation's airports is documented 
in the Post-Implementation Review (PIR) and Periodic Review Policy 
dated 28 April 2020. This policy provides supplemental instructions for 
TSA reviews to fulfill the requirements set forth in the DHS 
Acquisition Management Instruction 102-01. It defines the reviews to be 
conducted, sets minimum requirements, identifies stakeholders' 
responsibilities and establishes a governance structure for the 
planning, execution, and reporting of technology-specific plans. The 
technology-specific plan will be developed by the appropriate program 
office for each system based on its individual capabilities and 
functionalities detailing the frequency and scope of the reviews.
    Question 10. The TSA Modernization Act of 2018 (Public Law 115-254) 
required the Transportation Security Administration (TSA) to develop a 
strategy to diversify the security technology industry marketplace, 
including small business innovators. What steps has TSA taken to 
establish an open architecture environment for future technology 
procurements, including the latest Checkpoint CT procurement to allow 
for a much broader industrial base to support TSA's mission?
    Answer. Pursuant to the TSA Modernization Act, TSA developed a 
strategy to diversify the security technology marketplace. Consistent 
with this strategy, TSA continues to fund and support system 
development with approved CT vendors to improve detection, implement 
automated-conveyance functionality, and adopt open architecture work 
streams for future technology procurements. The following efforts 
should allow for a broader industrial base, including small business 
innovators and third-party vendors, to support TSA's mission:
    1. Continued development of the Digital Imaging and Communications 
        in Security (DICOS) data standard to establish an open and non-
        proprietary data format for collecting sensor data. This will 
        support the ability of both original equipment manufacturers 
        (OEMs) and third-party vendors to develop algorithms as the 
        information will be provided in a standardized format that is 
        available to all.
    2. Detection algorithm development efforts requiring the OEMs to 
        partner with third-party developers to expand the detection 
        capabilities of the CT systems.
    3. Established DICOS Tool Kits to support each CT system OEM 
        convert their sensor output into a DICOS-compliant format.
    4. DICOS and DICOS Tool Kits have been incorporated as a functional 
        requirement for the CPSS acquisition. This means the next 
        checkpoint CT procurement requires the systems to generate and 
        export DICOS-compliant scan files.
    5. Continued development of the Open Platform Software Library 
        (OPSL), a standardized and open interface protocol that allows 
        for communication across devices. The OPSL will move 
        transportation security equipment to modular designs and thus 
        remove vendor locks.
    6. Stream of commerce data collection effort is a focused TSA 
        initiative to collect data from the CT systems in the DICOS 
        format to allow for algorithm development by existing OEMs and 
        third-party vendors.
    7. Common workstation initiative is focused on leveraging the DICOS 
        and OPSL effort to establish a standard user workstation and to 
        support the development of an optimal user interface. This will 
        allow TSA to leverage a single workstation regardless of the CT 
        purchased and permit training and procedures to be developed 
        once and be useable across any CT unit purchases.
    8. Checkpoint Automation project is focused on leveraging DICOS and 
        OPSL to demonstrate the ability to transfer system scan 
        information using DICOS to a separate server, process that scan 
        information using a third-party algorithm, and return the 
        algorithm results to a common workstation. The goal is to 
        conduct these steps within an operationally viable time frame.
    In addition to the development of underlying enablers to an open 
and modular framework, TSA has multiple engagement activities with the 
technology industry marketplace to support incorporating small business 
innovators. TSA holds industry days to discuss upcoming needs and 
support networking across OEMs and third-party vendors, participates in 
industry events like those hosted by the Aviation Security Advisory 
Committee, and technology demonstration opportunities provided through 
the TSA Innovation Task Force Innovative Demonstrations for Enterprise 
Advancement Targeted Broad Agency Announcement.
     Questions From Chairman Bennie G. Thompson for Karl L. Schultz
                            arctic security
    Question 1a. Other branches of the military have testified to 
Congress in recent weeks of a need to re-evaluate the strategy in the 
Arctic. We have held a series of hearings and briefings on Arctic 
security this Congress to highlight the activities of our adversaries 
in the Arctic and the need for additional Coast Guard assets and 
resources to maintain our National security interests at our 
northernmost border. I am pleased the budget request includes funding 
for a second Polar Security Cutter (PSC) to support these activities.
    How are you coordinating and strategizing with the Navy and other 
military branches to ensure an appropriately coordinated approach to 
securing the Arctic?
    Question 1b. The Coast Guard released a Coast Guard-specific Arctic 
strategy last year, but the United States lacks a Government-wide 
strategy and DHS lacks a Department-wide strategy. Is there anyone at 
the DHS headquarters level developing an Arctic security strategy for 
the Department?
    Answer. Response was not received at the time of publication.
                           drug interdictions
    Question 2. According to a briefing paper on drug overdose deaths 
in the United States published by the Centers for Disease Control and 
Prevention in January of this year, ``From 2012 through 2018, the rate 
of drug overdose deaths involving cocaine more than tripled.'' Most of 
the cocaine headed toward the United States moves initially at sea. The 
Coast Guard has testified that it believes it is aware of about 80 
percent of these drug movements, but only has resources to target about 
20 percent of those for interdiction.
    What are the Coast Guard's targets for cocaine removal rates in 
fiscal year 2021? How much money would it take to enable the Coast 
Guard to achieve its cocaine removal rate targets?
    Answer. Response was not received at the time of publication.
                              it security
    Question 3a. During this year's State of the Coast Guard Address 
and in your testimony, you have sounded the alarm about the 
frighteningly inadequate nature of the Coast Guard's communications 
systems and the growing vulnerability of Coast Guard personnel carrying 
out operations that depend upon an unreliable system that could fail 
them at any moment. It is hard for Congress to do its job and fund the 
Coast Guard correctly if you're not clear about what you need and how 
much it will really cost.
    You mentioned that the fiscal year 2021 budget proposal is a first 
step to fixing the Coast Guard's IT infrastructure. How much more 
funding is needed to ensure the Coast Guard's readiness to meet its 
mission and bring its communications infrastructure into the 21st 
Century?
    Question 3b. Is this a problem in the other military services?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
